    OFFICE OF INSPECTOR GENERAL
U.S. GENERAL SERVICES ADMINISTRATION



M              VAL         ~PO          T
TOT E                  NG          55
 OCTOBER   1, 1999 .. MARCH 31, 2000
           Foreword




This report, submitted pursuant to the Inspector General Act of 1978, as
amended, summarizes the activities of the Office of Inspector General (OIG)
for the 6-month reporting period that ended March 31, 2000.

During this reporting period, we continued to work with GSA to identify
sound business management and operational improvements in the Agency’s
programs and operations. We issued a number of reports focusing on major
management issues facing the Agency. For example, we reported on serious
problems in GSA’s Contract Guard Program, raising concerns with respect to
the protection of Federal facilities and personnel. We also reported that a
mission-critical information system designed to manage thousands of Federal
properties and billions in rent billings was still experiencing major technical
and operational difficulties, which hinder its overall effectiveness. In
addition, we reviewed management controls over purchases made using
GSA’s credit cards for various products and services and found that
management needs to enforce controls to ensure that purchases are valid,
approving officials are notified of all purchases, and that duplicate payments
are not made. We also reviewed aspects of other GSA programs, including
the environmental management system, energy conservation practices, and
the Worldwide Property Inventory.

Working with the Department of Justice, we obtained over $3.4 million in
settlements from contractors resolving potential liabilities under the False
Claims Act. In addition, we identified over $43 million in financial
recommendations on how funds could be put to better use and in other
program savings. Also, we made 220 referrals for criminal prosecution, civil
litigation, and administrative action. Criminal cases originating from OIG
referrals resulted in 9 successful prosecutions. Savings achieved from
management decisions on audit financial recommendations, civil settlements,
and investigative recoveries totaled almost $47 million.

I want to take this opportunity to thank the GSA Administrator, GSA’s senior
managers, and the Congress for their support. I also want to express my
appreciation for the accomplishments of all OIG employees and commend
them for their continued professionalism, dedication, and willingness to
accept new challenges.




WILLIAM R. BARTON
Inspector General
April 28, 2000



                                                   Office of Inspector General i
      Table of Contents




                                                                                                    Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Major Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

Other Reviews of GSA Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .13

Procurement and Related Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . .18

Partnering with GSA Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . .23

Prevention Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .25

Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . .29

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . . . .32

Appendices

Appendix I–Significant Audits from Prior Reports . . . . . . . . . . . . . . . .39

Appendix II–Audit Report Register. . . . . . . . . . . . . . . . . . . . . . . . . . . .42

Appendix III–Audit Reports over 12 Months Old with Final
 Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .53

Appendix IV–Delinquent Debts. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .60

Appendix V–Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . .61




This semiannual report may be accessed on the Internet at the
following address: http://www.gsa.gov/staff/ig/publications.html




                                                                        Office of Inspector General iii
                      Summary of OIG Performance




OIG Accomplishments     October 1, 1999-March 31, 2000

                        Total financial recommendations                                $43,686,522

                        These include:

                        • Recommendations that funds be put to better use              $39,388,517

                        • Questioned costs                                             $ 4,298,005

                        Audit reports issued                                                111

                        Referrals for criminal prosecution, civil
                        litigation, and administrative action                               220

Results Attained        Management decisions agreeing with audit
                        recommendations, civil settlements, and
                        court-ordered and investigative recoveries                     $46,325,132

                        Indictments and informations on criminal referrals                  17

                        Cases accepted for criminal prosecution                             23

                        Cases accepted for civil action                                      8

                        Successful criminal prosecutions                                     9

                        Civil settlements                                                    9

                        Contractors debarred                                                29

                        Contractors suspended                                                1

                        Employee actions taken on administrative
                        referrals involving GSA employees                                    9




                                                                         Office of Inspector General v
                          Executive Summary




                        This period we continued to provide our wide variety of traditional services,
                        including program evaluations, contract and financial auditing, management
                        control reviews, investigative coverage, litigation support in contract claims,
                        civil fraud and enforcement actions, and criminal prosecutions. In addition,
                        we provided professional assistance through enhanced consulting services
                        designed to quickly inform management of potentially serious deficiencies or
                        other concerns prior to completion of all analytical work and formal report
                        issuance. We also continued our work in addressing what we believe are the
                        major issues facing GSA.

                        Major Issues
                        In this report, we have highlighted a number of reviews that address major
                        management issues facing GSA. These reviews cover a variety of areas from
                        information technology to protection of Federal facilities. In December
                        1999, we identified to members of the Congressional leadership the most
                        serious management challenges currently facing the Agency. For this period,
                        some of these challenges are in the areas of Federal facilities and personnel
                        protection, information technology, management controls, and aging Federal
                        buildings. Other major issues are being addressed through ongoing and
                        planned reviews.

                        Protection of Federal Facilities and Personnel
                        As part of our ongoing review of GSA’s efforts to improve the safety and
                        security of Federal employees and buildings, we performed an analysis of
                        GSA’s Contract Security Guard Program. We found several conditions that
                        warranted management’s immediate attention including: hundreds of guards
   Security guards      were on post without valid clearances or background checks; guards were not
                        trained in the proper use of security equipment; armed guards did not have
                        valid firearms qualifications; unarmed guards were stationed at posts
                        requiring armed guards; and, approximately one-half of all guard applicants
                        failed the new National Contract Guard Examination. We reported that
                        improvements in programmatic controls and oversight are needed to ensure
                        that guards are properly trained and qualified to perform their duties. We
                        also concluded that the Contract Guard Program lacks sufficient controls to
                        ensure that all guards have been properly cleared and have received sufficient
                        training to enable them to properly perform their duties. We reported that
                        these conditions warrant a material weakness designation and should be
                        reported under the Federal Managers’ Financial Integrity Act in FY 2000
                        (page 2).

                        Information Technology
Automated information   GSA’s challenges are increasing as the application of information technology
      system            becomes universal within the Government and impacts all aspects of business
                        operations. The Agency relies on its automated information systems to
                        perform its mission and manage its operations. One such system, the System

                                                                         Office of Inspector General vii
                                           Executive Summary




                                         for Tracking and Administering Real Property (STAR), was designed to help
                                         GSA more effectively manage over 8,000 Federal properties and over
                                         $5.5 billion in annual rental billings. Although significant progress has been
                                         made in implementing STAR, we found that STAR users are still facing
                                         many technical and operational difficulties. For example, system require-
                                         ments and capabilities are constantly changing, GSA has limited day-to-day
                                         control over the contractor-managed system, and system controls are
                                         inadequate to protect against disruption of system functions. Several of these
                                         problems exist because of the lack of an overall systems development plan
                                         detailing software, hardware, and functional requirements. Management
                                         needs to develop a project plan with sufficient project staff and leadership to
                                         ensure successful system performance (page 5).

                                         Management Controls
                                         We issued several reports this period addressing management controls,
                                         centering on payments to credit card vendors, purchase card transactions by
                                         GSA employees, and administration of performance-based contracts. The use
                                         of GSA’s purchase cards for procuring products and services has increased
                                         dramatically in recent years. Payments to credit card vendors for
                                         9 months ending June 1999 totaled about $99 million. Federal procurement
                                         reform has made using the card simple, convenient, and fast. However, in
                                         our control reviews, we found that controls over card purchases do not
                                         provide reasonable assurance that payments are for valid purchases, that
                                         approving officials are notified of all purchases, and that duplicate payments
     Credit card purchases               are prevented. We also noted that refresher-training requirements are
                                         insufficient to keep card holders current and updated on proper card use. We
                                         also found that some card users did not keep records of products or services
                                         ordered or received, and credit card billings had not been verified for
                                         accuracy. We recommended that controls over card purchases be improved to
                                         strengthen the overall purchase card programs. These improvements include
                                         ensuring approving officials monitor and verify card charges and ensuring
                                         card holders keep accurate purchase records and perform required
                                         reconciliations with card statements (pages 7-11).

                                         Management requested that we evaluate the procedures they established to
                                         monitor certain credit card transactions for its fleet vehicle operations and
                                         maintenance. We concluded that there was not a high degree of assurance
                                         that credit charges were valid and reasonable under a recently adopted
                                         program permitting the use of VISA cards. We found this was primarily due
                                         to the system’s lacking the capability to monitor such transactions online.
                                         Such a vulnerability was exhibited in our investigation and indictment of a




viii Semiannual Report to the Congress
                            Executive Summary




                          GSA employee for making fraudulent purchases using a credit card
                          (page 22). Management is working to correct this problem. Once corrected,
                          this should improve GSA’s ability to monitor card charges and help to
                          improve assurance levels (page 9).

                          We also concluded that management practices for administering performance-
                          based custodial contracts were not effective in one region and resulted in
 Construction contracts   service delivery deficiencies exceeding acceptable levels. Despite customer
                          complaints, GSA continued to renew contracts rather than enforce remedies
                          available under the terms of the contract (page 11).

                          Aging Federal Buildings
                          In our last semiannual report, we alerted management to significant health
                          and safety concerns at several Federal facilities identified during our review
                          of a regional Property Management Center. We completed our review this
Building maintenance      period, and reported additional concerns with repair and maintenance of
                          buildings, and a need to strengthen controls to ensure that all service contract
                          employees have security clearances. We also referred questionable
                          procurement actions to investigative authorities for further assessment
                          (page 11).

                          Other Program/Operational Reviews
                          The OIG continued its ongoing reviews of major programs and operations
                          throughout GSA’s various components. One of these reviews involved an
                          assessment of the Agency’s ability to provide a safe and healthful work
                          environment in GSA-controlled space and properties. Traditionally, GSA’s
Environmental program     major environmental concerns focused on asbestos and polychlorinated
                          biphenals related hazards in Federal buildings. We concluded that the
                          Agency needs to address issues such as property contamination, compliance
                          with Federal and state environmental laws and regulations, and liability for
                          tenant activities. Also noted were the program’s need to evaluate regional
                          activities, such as managing asbestos in place, and sharing information on a
                          nationwide basis (page 13).

                          We reviewed the accuracy and timeliness of real property reporting for the
                          Worldwide Inventory Report and concluded that GSA has no assurance that
                          the inventory reports provide accurate, timely, and complete information on
   Inventory reports      real property assets owned and leased throughout the world. This has
                          resulted from communications problems between agencies due to system
                          changes, agency reorganizations, and staff reductions. Further, we noted that
                          GSA has no legislative authority to enforce accurate data submissions, and
                          must depend on agencies to voluntarily submit current real property data in a
                          timely manner (page 15).

                          In conducting a review of contracting activities, we surfaced discrepancies in
                          data accuracy on procurement actions. Federal agencies are responsible for

                                                                             Office of Inspector General ix
                                        Executive Summary




                                      collecting and reporting procurement data to GSA’s Federal Procurement
                                      Data Center. We found that GSA misclassified certain procurement actions
          Data accuracy               that resulted in one type of procurement activity being understated by
                                      $196 million in Fiscal Year (FY) 1999. We suggested that more meaningful
                                      contract action codes could be helpful to Federal agencies. We noted that
                                      accurate information would enhance the ability of both the Office of
                                      Management and Budget (OMB) and GSA to enact sound procurement
                                      policies (page 16).

                                      Procurement Integrity
                                      An important part of the OIG’s work is to support the Agency’s contracting
                                      officers and to protect the integrity of GSA’s procurement programs and
                                      operations by detecting and preventing fraud, waste, and abuse. Based on
                                      our audit and investigative work this period, the Government entered into
                                      nine settlement agreements in which companies agreed to pay over
                                      $3.4 million to resolve potential civil liabilities under the False Claims Act.
                                      These contractors provided library lending services, computer furniture,
                                      miniature digital recorders, shredders, and leased warehouse space. The
                                      settlements involved allegations that the companies had misrepresented their
                                      commercial discount practices, had falsified certifications on construction
                                      projects, and had conspired to substitute inferior products in violation of the
                                      False Claims Act and other statutory and contractual provisions (pages 18-
                                      20).

                                      We reviewed the two contractual arrangements used by GSA to compete for
                                      the Federal information technology (IT) market. One is the Multiple Award
                                      Schedule which provides agencies an easy way of ordering standard
                                      commercial products and services direct from vendors. The other arrange-
                                      ment involves multiple award contracts that normally require GSA assistance
                                      in acquiring and administering contracts for IT products and services. Our
                                      review originated from a concern that costs of duplication, if any, between
                                      the two procurement options could outweigh any benefits. However, we
                                      concluded that even though similar IT products and services are being offered
                                      under both contractual arrangements, they do satisfy specific needs of
                                      customers and that clients, depending on their needs, can select either option
                                      for procuring their IT needs (page 20).

                                      Criminal Investigations
                                      An investigation conducted during this period resulted in eight debarment
                                      actions against a janitorial contractor. It was revealed that the company
                                      violated employment provisions of the Immigration and Nationality Act by
                                      employing illegal aliens on a Federal contract (page 21).

                                      Additionally, we investigated the conversion of Government surplus property
                                      to personal use by a state representative and her associate (page 21). We
                                      apprehended a GSA employee misusing credit cards and had a contracting
x Semiannual Report to the Congress
  Executive Summary




officer plead guilty to mail fraud (page 22). Also in this reporting period, we
completed an investigation which resulted in an employee pleading guilty to
workers’ compensation fraud (page 26), and performed an investigation into
an assault by a Federal Protective Service Officer (page 27).

Value-Added Assistance Services
The OIG continued to provide value-added professional assistance to GSA
through participation in Agency improvement task forces, committees, and
working groups. Our representatives participated in teams addressing the
replacement of GSA’s financial system (NEAR) and assisted in establishing a
system of management and information security controls. We also continued
to participate in a GSA task force established to facilitate the construction of
a courthouse by responding to requests for information on cost allowability
and other contract provisions. In addition, the OIG participates in a number
of committees and working groups that directly affect our ability to add value
to the Agency, e.g., the Information Technology Council. We also partici-
pated in GSA’s Data Warehousing Pilot working group to test and direct data
warehousing for the Agency. We met with the President’s Council on
Integrity and Efficiency (PCIE) Information Technology Roundtable, PCIE
Security and Audit working groups, and the PCIE Government Performance
and Results Act working group (pages 23-24).

Summary of Results
The OIG made over $43 million in total financial recommendations,
including more than $39 million in recommendations that funds be put to
better use and over $4 million in questioned costs; made 220 referrals for
criminal prosecution, civil litigation, and administrative actions; reviewed
227 legislative and regulatory actions; and received 890 Hotline calls and
letters. This period, we achieved savings from management decisions on
financial recommendations, civil settlements, and investigative recoveries
totaling over $46 million. (See page v for a summary of this period’s
performance.)




                                                  Office of Inspector General xi
                               OIG Profile




                      The GSA OIG was established on October 1, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities. It
                      consists of:

                      • The Office of Audits, an evaluative unit staffed with auditors and analysts
                        who provide comprehensive audit coverage of GSA operations through
                        program performance reviews, internal controls assessments, and financial
                        and compliance audits. It also conducts external reviews in support of
                        GSA contracting officials to ensure fair contract prices and adherence to
                        contract terms and conditions. The office also provides advisory and
                        consulting services to assist Agency managers in evaluating and improving
                        their programs.

                      • The Office of Investigations, an investigative unit that manages a
                        nationwide program to prevent and detect illegal and/or improper activities
                        involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal advice
                        and assistance to all OIG components, represents the OIG in litigation
                        arising out of or affecting OIG operations, and manages the OIG
                        legislative/regulatory review functions.

                      • The Internal Evaluation Staff, a multidisciplinary staff that plans and
                        directs field office appraisals and conducts internal affairs reviews and
                        investigations.

                      • The Office of Administration, an in-house staff that provides information
                        systems, budgetary, administrative, personnel, and communications
                        services.

Office Locations      The OIG is headquartered in Washington, D.C., at GSA’s Central Office
                      building. Field audit and investigation offices are maintained in Boston, New
                      York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, and Washington, D.C. Sub-offices are also maintained in Auburn
                      and Cleveland.

Staffing and Budget   As of March 31, 2000, our on-board strength was 281 employees. The OIG’s
                      FY 2000 budget is $33.3 million.




                                                                        Office of Inspector General 1
                                              Major Issues




                                      The OIG is committed to addressing major management issues facing GSA.
                                      We identified and shared with management some issues that present key
                                      challenges to the Agency. Our efforts this period included reviews and
                                      recommendations in several major areas that GSA management is taking
                                      steps to address. It is our intent to assist management in improving Agency
                                      operations.

Significant OIG                       Protection of Federal Facilities and Personnel
                                      Overview
Accomplishments
                                      Since the 1995 bombing of the Federal Building in Oklahoma City, GSA’s
                                      Federal Protective Service (FPS) has had an increased responsibility for
                                      security and law enforcement in Federal facilities. Because of the heightened
                                      sensitivity of the Agency’s security mission, the OIG has directed its reviews
                                      towards major activities within the FPS. As highlighted in our November
                                      1997 semiannual report, our review of FPS’ criminal investigation function
                                      pointed out that the safety and protection of Federal employees and property
                                      were potentially being compromised because regional criminal investigation
                                      activities were operated autonomously, with no program accountability or
                                      measurable performance standards.

                                      Our audit activity then focused on GSA’s upgrading of security at Federal
                                      facilities. In a series of reports, we noted that GSA was not accurately report-
     GSA continues                    ing the status of security enhancement equipment, had misused enhancement
    efforts to improve                funding, and had not planned for the use of about $2 million of equipment
    building security.                found in storage. In a separate but related issue, we reported on the status of
                                      security at a newly constructed Federal facility. As described below, a fol-
                                      low-up review was performed this period on security at this
                                      facility.

                                      This semiannual period we also completed the third phase of our most recent
                                      FPS program review. This phase focused on GSA’s Contract Security Guard
                                      Program. While a program report was issued in March 2000, we had
                                      previously alerted management of significant concerns warranting immediate
                                      attention during the course of our review.

                                      GSA management has made significant progress in addressing the issues
                                      included in our prior audit reports and has made significant improvements to
                                      the safety and security of Federal employees and property. We continue to
                                      work closely with management to assist them in better achieving their goals.

                                      Security Concerns
                                      GSA’s security effort at a large Federal facility has received a great deal of
                                      attention from the media, the public and high level Government officials.
                                      Due to the size and heavy public access nature of the complex, the
                                      implementation of security measures has been particularly problematic. The

2 Semiannual Report to the Congress
        Major Issues




FPS commissioned a consultant to perform an independent review
concerning the effectiveness of the planned and installed security measures.

The OIG performed a review to evaluate the progress FPS had made toward
addressing the consultant’s major concerns and related security recommenda-
tions. The audit team identified several significant matters that warranted
management’s immediate attention through an alert report dated June 8,
1999. These matters included security issues that were not identified by the
consultant’s review. The alert report noted that although progress had been
made toward addressing the concerns raised, GSA still needed to accomplish
several major security measures and ensure consistent and meaningful
enforcement of security procedures.

GSA’s security effort at this public facility was the subject of a House
Subcommittee hearing. The OIG performed a follow-up review to assess the
progress GSA had made toward completing the scheduled security measures.
We found that security efforts for the facility had benefited from improved
communication and coordination among the responsible Agency officials,
resulting in substantial progress towards addressing the security issues.
However, several major security measures still needed to be accomplished.

Our November 29, 1999 report discussed the results of the Agency’s progress
in completing the scheduled security measures as of October 1, 1999. Since
implementation is ongoing, we did not make any further recommendations.

Contract Security Guard Program
The FPS has experienced a recent significant increase in the need for security
guards at Federal facilities. Since 1995, the number of guards has more than
doubled to about 7,000 nationwide. FPS contracts with private security firms
to meet its need for both armed and unarmed guards. Before a prospective
employee can be assigned under a GSA contract, the individual must undergo
a limited criminal history background check and pass an FPS administered
written examination.

This reporting period we completed our review of the Contract Security
Guard Program. During the course of this review, we became aware of
conditions that warranted management’s immediate attention. We provided
three alert reports to management on significant issues. Two reports were
completed this semiannual period and the third was completed in the
previous period. The issues from all three of these reports are incorporated
into our overall program report.

FPS Central Office has been trying to create a national program with
standards to be applied to all GSA guard contracts, with five program areas to
be standardized in all regional guard contracts. These include guard


                                                  Office of Inspector General 3
                                              Major Issues




                                      training, weapons and ammunition, guard eligibility, a basic written
                                      examination, and suitability and certification requirements.

                                      We found that the Contract Guard Program was not functioning in an
                                      optimal manner. An absence of programmatic controls and oversight has led
                                      to operational breakdowns and questionable practices at the regional levels.
                                      We noted:

                                      • Hundreds of guards were on post without valid suitability determinations.
                                        Many guards were overdue for re-certification, and numerous background
                                        checks were in a pending status for over one year. Some guards were on
                                        post despite unfavorable determinations. Many guards were not listed in
                                        the Contract Suitability Reporting System, which stores information
                                        pertinent to the suitability clearance application and the suitability
                                        determination for all GSA contract employees. Without this information,
                                        FPS officials were in the position of not knowing the identity and any
                                        criminal history status of many individuals responsible for protecting
                                        Federal employees and buildings.
Operational
breakdowns in                         • There is a high failure rate occurring under the new National Contract
Contract Guard                          Guard Examination, which was implemented in May 1999. While
                                        contractors are responsible for training guards and seeing that they are
Program:                                adequately prepared to take the exam, almost half of the applicants failed
• Hundreds of guards                    the national exam. FPS needs to determine the reasons for the high failure
lack clearances.                        rate, and evaluate the test questions to decide if questions need to be
• Guards lack                           revised or eliminated. If the high failure rate continues, GSA may find it
                                        difficult to have adequate guard coverage at all posts.
necessary training.
• Armed guards lack                   • Guards lacked the training necessary to perform their duties. Numerous
firearm qualifications.                 instances were noted of contract guards who were not adequately trained
                                        in X-ray scanner and magnetometer operations; use of handcuffs,
                                        expandable batons, and pepper spray; record keeping and reporting
                                        requirements; and CPR/first aid/bloodborne pathogens procedures.

                                      • Armed guards were on post without valid firearm qualifications. Many
                                        armed guards had not demonstrated proficiency with firearms, and many
                                        others were overdue for their annual re-qualification. Guards without
                                        weapons were stationed at armed posts. There is no consistent policy on
                                        the use of armed vs. unarmed guards.

                                      • Contract enforcement and oversight were not consistent. Guard inspection
                                        procedures differed from region to region. Contracting officials were
                                        reluctant to take contractually permissible deductions for non-performance.
                                        In one region, contracting officials waived contract requirements for guard



4 Semiannual Report to the Congress
        Major Issues




  training, firearm qualifications, state background checks, and the guard
  exam in contravention of national program guidelines.

• There was no consistent policy on post orders. Missing or inaccurate post
  orders means that there is no specific documentation setting forth the
  security expectations for a particular post.

• Guard services procured by purchase orders were not subjected to critical
  program requirements. One region had used purchase orders rather than
  contracts, but critical requirements such as training, testing, and minimum
  qualification standards were not specified on the purchase orders.

In our March 28, 2000 report, our recommendations to the Assistant
Commissioner, Federal Protective Service, included taking action to:

• Ensure that background suitability status on all guards is accurate.

• Establish centralized controls and a national training policy.

• Ensure all guards are properly trained and supervised.

• Witness firearm qualification sessions and track qualification status of
  contract guards.

• Encourage guard inspections and enforce contract requirements.

• Ensure that post orders accurately reflect the duties required for each
  position.

The Assistant Commissioner, Office of Federal Protective Service, agreed
with the recommendations in the report. The audit is still in the resolution
process.

We also concluded that the Contract Guard Program lacks sufficient controls
to ensure that all guards have been properly cleared and have received
sufficient training to enable them to properly perform their security duties.
We reported that these conditions warrant a material weakness designation
and should be reported by the Agency under the Federal Managers’ Financial
Integrity Act in FY 2000.

Information Technology
Real Property Management Information System
In January 1997, GSA awarded a contract to adapt an existing private-
sector real property management information system to serve as the Agency’s
own System for Tracking and Administering Real Property (STAR), so that it
can more effectively manage over 8,000 Federal Government properties and

                                                   Office of Inspector General 5
                                              Major Issues




                                      $5.5 billion in annual rental billings. The contract proposal anticipated a
                                      14-month development schedule. Due to extended contract negotiations,
                                      only about 8 months were allotted to complete STAR development, with
   GSA’s reliance on                  system deployment occurring in October 1997. The contract base cost was
   outside contractors                $17 million. As of December 1999, just over $25 million had been spent on
     limits effective                 the STAR system, with another $6.6 million planned for FY 2000.
   control of mission-                With the implementation of STAR, GSA has begun to bring about significant
     critical system.                 improvements and changes in its real property management practices. STAR
                                      improved realty specialists’ ability to access, update, and analyze real
                                      property data. It also initiated important cultural shifts in the way GSA
                                      carries out its tasks, by placing more accountability on its personnel for
                                      inputting and maintaining accurate data. Both GSA management and realty
                                      staff have benefited from the system’s online capabilities to provide instant
                                      access to building inventory, leasing, and billing information. Unfortunately,
                                      more than 2 years after system deployment, STAR users are still experiencing
                                      technical and operating difficulties.

                                      Additional requirements and capabilities are still being developed and some
                                      originally required functions are not yet operational. Nine different STAR
                                      versions have been implemented with a tenth version planned in the near
                                      future. GSA has been challenged with providing effective training and
                                      reference manuals to guide users through the different versions. The large
                                      number of system versions was necessary because STAR was developed and
                                      deployed in just 8 months, all intended features were not included, and a
                                      complete software and hardware requirements baseline was not identified and
                                      analyzed. Additionally, no project plan was developed to guide development
                                      and to specify the roles and responsibilities of the project management team
                                      and other staff involved in the STAR project.

                                      GSA is heavily relying on the contractor to continue development of STAR,
                                      as well as to perform system administration, database administration, security
                                      functions, and the majority of system testing. Its dependency on the
                                      contractor tends to limit GSA’s own knowledge and effective control of the
                                      overall development and the day-to-day operation of this mission-critical
                                      system.

                                      We also noted a number of significant weaknesses in STAR’s controls that
                                      could affect the Agency’s ability to protect against disruption of system
                                      functions and to adequately manage the Federal Government properties under
                                      its supervision. Some of these weaknesses were revealed in the areas of
                                      configuration management, testing, and system security.




6 Semiannual Report to the Congress
                               Major Issues




                       Our March 31, 2000 report recommended that the Commissioner, Public
                       Buildings Service, with the assistance of the Public Buildings Service’s Chief
                       Information Officer:

                       • Institute a “time-out” in adding new STAR capabilities and other
                         modifications, and first develop a complete software and hardware
                         requirements baseline to identify the total set of capabilities needed in
                         STAR.

                       • Develop a STAR project plan with direct involvement by the Office of the
                         Public Buildings Service Chief Information Officer to provide strategic
                         direction.

                       • Establish a strong project management team with sufficient full-time staff
                         and documented roles and responsibilities.

                       • Work to complete STAR development in a timely manner and at
                         reasonable cost.

                       Management agreed with the recommendations in the report. The audit is
                       still in the resolution process.

                       Management Controls
    Adherence to       GSA offices and staff are authorized to use simplified acquisition procedures
                       to procure supplies and services needed to carry out their official
 controls over card    responsibilities. Agency-issued purchase cards are the preferred means of
 transactions needs    purchase, and are considered more timely and cost-effective than traditional
  strengthening to     means of procurement. Although procedures are simplified, procurement
assure that payments   officials are still required to comply with basic management controls
                       mandated by GSA policy and guidelines. GSA faces an increased risk of
    are for valid      improper procurements when the authority is delegated to employees who are
     purchases.        neither experienced nor trained in procurement regulations. In past reviews,
                       we have identified problems arising from a lack of management controls
                       being exercised, particularly in the procurement arena.

                       GSA currently uses three credit cards for many purchasing transactions. The
                       VISA purchase card is widely used for the procurement of goods and
                       services; the Voyager fleet card is used solely for fleet vehicle operations and
                       maintenance; and the VISA travel card is used by employees for travel
                       expenses while on official government business. Controls related to the first
                       two cards are covered by reports issued this period.

                       Finance Center Payments
                       We reviewed management controls for payments made by the Heartland
                       Finance Center for purchase card and fleet card transactions. We found that


                                                                          Office of Inspector General 7
                                              Major Issues




                                      improper payments and duplicate payments can occur primarily because
                                      cards are typically used without pre-authorization of purchases, and controls
                                      to reconcile purchases to payments are not adequate.

                                      Purchase Card. We found that the current purchase card process does not
                                      ensure that approving officials are notified of all purchases nor held
                                      accountable for improper procurements. We also reported that refresher-
                                      training requirements are insufficient for keeping procurement personnel
                                      updated with current guidance pertaining to the purchase card.

                                      Fleet Card. While the control environment for the fleet card has improved
                                      due to changes in the credit card process, management controls need
                                      strengthening to assure that payments are for valid purchases. During our
                                      review, fleet officials began working with the credit card vendors and others
                                      to develop and implement authorization controls and post-payment control
                                      processes. We concluded that if fleet is able to implement the control
                                      techniques it is developing, controls over card purchases will be adequate to
                                      provide reasonable assurance that most transactions are valid.

                                      Preventing duplicate payments. We also noted that controls are not adequate
                                      to prevent payments from being made more than once for the same purchase.
                                      The task of identifying duplicate payments after they have occurred is a time-
                                      consuming, laborious process. However, the Agency’s development and
                                      implementation of Pegasys, an accounting system that will automatically
                                      compare all payment requests to authorized purchases, should protect against
                                      and help eliminate duplicate payments.

                                      Our January 28, 2000 report recommended that the Chief Financial Officer
                                      take action to:

                                      • Encourage the Office of Finance to proceed with its plans to designate
                                        approving officials as assistant certifying officers.

                                      • Require periodic refresher training for card holders and approving
                                        officials.

                                      • Use Pegasys to accomplish purchase card transaction approval and
                                        reconciliation.

                                      We also recommended that the Commissioner, Federal Supply Service,
                                      continue efforts to:

                                      • Increase the use of point-of-sale controls for fleet card transactions.

                                      • Ensure that Fleet Management Center personnel follow up on potentially
                                        improper fleet card transactions.

8 Semiannual Report to the Congress
                                 Major Issues




                         • Ensure that personnel inform customers and vendors about the proper use
                           of the fleet card.

                         Management officials concurred with our recommendations in the report.
                         The audit is still in the resolution process.

                         Vehicle Fleet Card Transactions
                         In July 1998, GSA established the use of VISA charge cards as a payment
Online capability will   option in addition to its primary Voyager credit card for its fleet vehicle
  greatly enhance        operations and maintenance. GSA intended for the Voyager card to be the
 monitoring of fleet     primary card used by fleet customers rather than the VISA card. However,
 card transactions.      because the VISA card was better known and less expensive, it is being used
                         much more than expected. Management requested that the OIG evaluate
                         whether the procedures established by GSA to monitor these VISA
                         transactions are sufficient to provide adequate assurance that the charges are
                         valid and reasonable.

                         The original agreement between the prime contractor and GSA included the
                         requirement for the contractor to list all transactions in one online database
                         accessible to the Agency. GSA intended to build its system of controls
                         around this online capability. Voyager, a subcontractor to the prime,
                         developed a system that lists transactions online. However, Voyager’s system
                         did not include VISA transactions. These will not be included in the fleet
                         system database before March or April 2000. In the interim, GSA must work
                         with periodic contractor-submitted reports for VISA monitoring purposes.

                         We concluded that GSA does not currently have a high degree of assurance
                         that the VISA charges are valid and reasonable. There is a need for greater
                         and improved exchange of information between GSA and the contractor, with
                         responsibilities of each to be more clearly stated in writing. However, the
                         Agency is continuing its overall efforts to increase payment controls and is
                         working with the OIG to resolve issues identified in our report. We believe
                         that when the VISA transactions are available online, GSA’s monitoring capa-
                         bilities will be greatly enhanced.

                         The December 6, 1999 report was advisory in nature and did not contain any
                         formal recommendations.

                         Simplified Procurements and Small Purchases
                         While reviewing task and delivery orders placed by a Customer Service
                         Center against multiple award term construction contracts in one region, we
                         noted that the Agency had not sought competition on orders between $2,500
                         and $10,000 as required by regulation. Upon further review, we found that
                         the contract erroneously required competition only on orders in excess of



                                                                           Office of Inspector General 9
                                               Major Issues




                                       $10,000. The language in the solicitation and subsequent contract was
                                       adopted from a prior construction term contract that also had non-complying
                                       terms. As a result, GSA was not complying with the law and might not have
                                       obtained the best value for the orders awarded under the contract.

                                       In addition, regional management cannot be assured that all purchases made
                                       by their procurement personnel represent official needs because basic
                                       controls were ignored by some activities. Some purchase card users did not
                                       keep records of what was ordered or received, and credit card billings had not
                                       been verified for accuracy. These problems went undetected because
                                       officials responsible for periodic review of credit card purchases had not
                                       performed their reviews. In addition, we noted that the purchase card
                                       program coordinator did not have current authorization forms for all card
                                       holders to document spending limits and identify approving officials.

                                       We concluded that term contracts need to be reviewed and modified where
                                       necessary. Also, controls need to be strengthened over small purchase
                                       bankcard transactions. Approving officials need to monitor and verify card
                                       usage. Card holders must retain supporting documentation and perform
                                       monthly reconciliations of the card statements. Otherwise, there is little to
                                       safeguard against potential misuse or waste, and no assurance that all
                                       procurements are valid to serve program needs.

                                       In other reviews made of small purchase practices for procurement programs
                                       in two regions, we found that while controls were generally effective, again
                                       some purchase card users were neither maintaining logs of transactions nor
                                       maintaining documentation needed to reconcile monthly account statements.
                                       In addition, in one region, items that appeared questionable in nature were
                                       not reviewed by the approving official, and the designated approving official
                                       was not the supervisor of any of the card holders, and was external to the
                                       card holders’ organization.

                                       In our December 21, 1999, January 10, 2000, and February 29, 2000 reports
                                       to regional management, we included recommendations that:

                                       • Construction term contracts be reviewed and modified as necessary to
                                         ensure that contracts comply with law and regulations.

                                       • Approving officials be the card holders’ supervisors or higher level
                                         officials, and that they monitor and verify all purchase card activities.

                                       • Individual card holders document purchases, perform monthly
                                         reconciliations, and adhere to single and monthly spending limits.

                                       A responsive management action plan was provided for implementing the
                                       recommendations in the December 21, 1999 report. Management agreed

10 Semiannual Report to the Congress
                                 Major Issues




                         with the recommendations in the January 10 and February 29, 2000 reports,
                         which are still in the resolution process.

                         Administering Custodial Service Contracts
 Ineffective contract    Reform initiatives have led to changes in the way GSA contracts for services.
    administration       GSA is stressing the use of performance-based service contracting which
                         places the responsibility on the contractors to achieve the measurable
   allowed vendor        performance standards as specified in the contracts. The success of GSA’s
     performance         performance-based service contracting depends, in part, on effective contract
deficiencies to exceed   administration.
  acceptable levels.     We found that ineffective management practices for administering
                         performance-based custodial service contracts have allowed service delivery
                         deficiencies to exceed acceptable levels. Regional contracting officials were
                         not documenting routine inspections and acceptance of the work performed
                         by custodial contractors. Despite customer complaints of dissatisfaction with
                         the level of custodial performance in their buildings, contract administrators
                         did not document meetings with contractors aimed at correcting deficiencies
                         and non-performance. GSA continued to renew the contracts rather than take
                         remedial action available under the terms of the contract.

                         During our audit, Agency officials acknowledged awareness of issues in these
                         contract administration practices and took measures to address the issues.
                         Management scheduled training for contract administrators and inspectors
                         that addressed a broad range of custodial program issues including the
                         administration of performance-based contracts.

                         We believe that management’s training initiative, followed by an
                         appropriate evaluation, should result in consistent and effective practices for
                         performance-based service contracting. Accordingly, we made no formal
                         recommendations in our January 5, 2000 report to the Regional
                         Administrator.

                         Aging Federal Buildings
     Repairs and         Property and Procurement Management
   maintenance in        GSA has the responsibility to provide fully serviced space to house
  Federal buildings      Government agencies in Federally-owned and leased buildings. Field offices
                         and Property Management Centers (PMCs), located throughout the country,
  need attention to
                         fulfill the needs and requests of Government agencies that occupy space in
satisfy customers and    the buildings. In general, PMC activities include procurement, asset
 mitigate safety and     management, and contract and lease administration.
    security risks.



                                                                           Office of Inspector General 11
                                               Major Issues




                                       Our review of a PMC in one region revealed health and safety concerns in
                                       five buildings that warranted immediate reporting to management. These
                                       concerns related to the presence of damaged asbestos insulation, elevator
                                       safety, and sewer and plumbing problems. These alert reports were
                                       highlighted in our Semiannual Report to the Congress for the period ending
                                       September 30, 1999.

                                       This period, we completed our assessment of that PMC, reporting that repairs
                                       and maintenance within Federal buildings should be improved. Deficiencies
                                       noted in the buildings reviewed included: a non-closing or latching fire door,
                                       a rusted-shut garage door, damaged walls that were never repaired and
                                       painted, and unrepaired machine oil leaks. Additionally, controls could be
                                       strengthened to ensure that all service contract employees obtain the required
                                       security clearances. As a result of these and other problems, customer
                                       agencies were dissatisfied, and in some instances, the safety and security of
                                       personnel and property in Federal buildings were placed at risk.

                                       Our assessment also disclosed that the PMC did not always procure supplies
                                       and services in accordance with applicable laws, regulations, and established
    Regional officials                 policy and procedures. Several PMC officials developed delivery orders for
                                       the indefinite quantity construction contract that misrepresented the work
  misrepresented work                  required and did not represent the work actually provided by the contractor
  required and services                and paid for by the Government. Additionally, officials certified that goods
  actually received and                and services were received when they were never provided or were provided
     paid for by the                   in lesser quantities than ordered. We referred these questionable procurement
                                       actions to investigative authorities for further assessment.
      Government.
                                       Sales receipts were not maintained on file for about 15 percent of credit card
                                       transactions. Some of these purchases could have been made for personal
                                       use. Without adequate documentation of credit card purchases, approving
                                       officials cannot confidently verify that a transaction was for official
                                       Government purposes, and card holders may not be able to accurately
                                       reconcile their monthly statements.

                                       Our January 21, 2000 report included recommendations that the Regional
                                       Administrator:

                                       • Develop and implement controls to measure and assess the effectiveness of
                                         contract administration by the PMC.

                                       • Develop and implement a system to measure the effectiveness of the PMC
                                         personnel in adhering to the internal controls established by Federal
                                         procurement laws and regulations.

                                       Management agreed with the recommendations in the report. The audit is
                                       still in the resolution process.

12 Semiannual Report to the Congress
                         Other Reviews of GSA Programs




                             GSA is a central management agency that sets Federal policy in such areas
                             as Federal procurement, real property management, and telecommunications.
                             GSA also manages diversified Government operations involving buildings
                             management, supply facilities, real and personal property disposal and sales,
                             information technology, and motor vehicle and travel management. Our
                             audits examine the efficiency, effectiveness, and integrity of GSA programs
                             and operations, and result in recommendations and reports to management.
                             Our internal audit program is designed to facilitate management’s evaluation
                             and improvement of control systems by identifying areas of vulnerability and
                             providing consulting and advisory services.

Significant OIG              Environmental Management System
Accomplishments              As part of its role in providing real estate services to Federal agencies, GSA
                             manages an environmental program to provide a safe and healthful workplace
                             for Federal employees and the visiting public. Although GSA activities do
                             not generally produce hazardous materials, the Agency faces a wide variety
                             of environmental issues and liabilities. GSA must address building-related
                             environmental hazards such as asbestos, lead, and polychlorinated biphenyls
                             (PCBs). In addition, it must identify properties that were contaminated by
                             activities at these sites before the properties were transferred to GSA when it
                             was created in 1949. Also, buildings operations and maintenance programs,
                             such as sewage disposal and cooling system maintenance, may impact the
                             surrounding environment. Finally, GSA, as a landlord, can be held liable for
                             environmental contamination caused by its tenant agencies.

                             In recent years, GSA’s environmental program focused primarily on asbestos
                             and PCB related hazards. Program implementation became a regional
 GSA needs to become         responsibility with little or no oversight from the national level. Realizing
   more proactive in         that its environmental program management strategy needed to change, the
                             Agency recently established an organization at the national level and is in the
      addressing             process of developing overall strategy for implementing a nationwide
 environmental issues.       program.

                             The OIG performed this review to see if the Agency was prudently managing
                             the environmental program to identify and address environmental conditions
                             in GSA-controlled space and properties. We concluded that the Agency
                             should become more proactive in how it views and acts on environmental
                             issues. It needs to address issues such as property contamination,
                             compliance with Federal and state environmental laws and regulations, and
                             liability for tenant activities. We noted that the program lacked a method for
                             evaluating regional implementation activities such as managing asbestos in
                             place, and an organizational framework for sharing information on a
                             nationwide basis.




                                                                              Office of Inspector General 13
                                Other Reviews of GSA Programs




                                       While the Agency included $111 million needed for environmental cleanup in
                                       its FY 1999 financial statements, this amount only recognizes known envi-
                                       ronmental contamination projects. GSA should review all of its properties
                                       for contamination, and determine costs of complying with Federal and state
                                       regulations. Finally, projects should be prioritized on a national basis.

                                       In our February 16, 2000 report, we recommended that the Commissioner,
                                       Public Buildings Service:

                                       • Establish an organizational framework to evaluate and coordinate regional
                                         activities.

                                       • Expand the focus of the environmental program to include property
                                         contamination, compliance with Federal and state environmental
                                         regulations, and liability for tenant activities.

                                       • Prioritize the environmental projects on a nationwide basis.

                                       The Commissioner concurred with the recommendations in the report. The
                                       audit is still in the resolution process.

                                       Energy Conservation
  Regional efforts are                 The Federal Government has been recognized as the nation’s largest energy
   commendable , but                   consumer. Since April 1991, various Acts of Congress and Executive Orders
     controls can be                   have directed reduction in the consumption of energy by the Government to
                                       save taxpayer dollars and reduce emissions that contribute to air pollution.
  improved to identify                 Each agency is to reduce energy consumption by 25 percent for industrial
      conservation                     facilities and 35 percent for all other facilities.
    opportunities and
                                       Our assessment of one region’s efforts to conserve energy showed that it has
   manage the energy                   been active in energy conservation for a number of years. In February 2000,
        program.                       this region received its first Energy Star Award for exceeding energy
                                       reduction goals in the Regional Office Building.

                                       Regional management has been using the Energy Usage Analysis System
                                       (EUAS) to make energy-related decisions. This system was designed to
                                       make comparisons of yearly energy usage to the 1985 base year and allow for
                                       comparison on progress made toward meeting mandated energy goals.
                                       Additionally, it is used to report energy consumption data to the Department
                                       of Energy for consolidation into the annual report to the President. However,
                                       because the gross square footage (GSF) data in the EUAS must remain
                                       constant in order to make valid comparisons to the 1985 base year, no current
                                       and accurate GSF data is maintained to be used for day-to-day management
                                       purposes.



14 Semiannual Report to the Congress
Other Reviews of GSA Programs




    Furthermore, due to insufficient documentation we could not determine
    whether the region had fulfilled the requirement to have 10 percent of the
    Government-owned facility inventory subjected to an energy survey each
    year. We reported that the region should improve management controls to:
    (1) document the result of the energy survey effort; (2) identify energy
    conservation opportunities deemed not cost-effective; and (3) track
    implementation of energy conservation opportunities identified as cost-
    effective but awaiting funding, completion, or that were fully installed.

    We also noted that the Region started funding energy projects using Energy
    Savings Plan Contracts (ESPCs) in July 1998 and has financed a total of four
    projects to date. Under an ESPC, a private-sector energy service company
    will provide the capital for installing energy and renewable energy systems.
    The energy contractor guarantees an agency a fixed amount of energy cost
    savings throughout the life of the contract and is paid directly from those cost
    savings. Agencies retain the remainder of the energy cost savings.

    Our March 30, 2000 report recommended that the Assistant Regional
    Administrator, Public Buildings Service:

    • Assure that management decisions are being made on accurate
      measurement data.

    • Enhance the current plan by including appropriate listings and details for
      all identified energy efficiency and conservation opportunities in
      Government-owned, Government-operated (regional) buildings.

    • Continue to emphasize utilization of alternative financing methods where
      cost-effective.

    • Recognize energy efficiency and conservation responsibilities and
      accomplishments in both position descriptions and performance
      evaluations of appropriate employees.

    Management concurred with our recommendations in the report. The audit is
    still in the resolution process.

    Worldwide Property Inventory
    The annual Worldwide Inventory (WWI) Report constitutes a central source
    of information for all real property owned by and leased to the United States
    Government throughout the world. This report is based on information
    provided by Federal landholding agencies, and is compiled by the GSA
    Office of Governmentwide Policy (OGP), as mandated by the Federal
    Property Management Regulations.



                                                      Office of Inspector General 15
                                Other Reviews of GSA Programs




                                       We reviewed the real property reporting for this inventory to evaluate the
                                       accuracy and timeliness of reported data received by OGP, and of GSA’s own
    Inventory reports                  input to the WWI. Our review concluded that OGP has no assurance that the
     need to provide                   inventory reports provide accurate, timely, and complete data for identifying
  accurate, timely, and                real property assets of Federal landholding agencies.
    complete data for                  We found that GSA inventory data had not been submitted or updated for
   identifying Federal                 WWI reporting because the communication structure for reporting leased-
  real property assets.                property data was lost and had not been reprogrammed during system
                                       conversions. GSA system changes disrupted the ability to retrieve data
                                       queries for conversion into owned-property inventory data. Further, staff
                                       downsizing along with reorganizations hindered effective reporting. In
                                       addition, we pointed out that OGP has no oversight ability or legislative
                                       authority to enforce accurate data submissions, and it must depend on
                                       agencies to voluntarily submit current real property data in a timely manner.

                                       In an effort to codify the WWI requirement into law for all Federal-reporting
                                       agencies, OGP is seeking OMB approval for its proposal to amend the
                                       Federal Property and Administrative Services Act of 1949. The proposal
                                       would authorize the GSA Administrator, in coordination with heads of
                                       affected Federal agencies, to accumulate and maintain a comprehensive
                                       listing of all Federal real property interests under custody and control of each
                                       agency. It would also require the head of each landholding agency to appoint
                                       a senior official to ensure that a listing and description of real property assets
                                       is provided GSA for inclusion in a Governmentwide report of all Federal real
                                       property interests.

                                       The March 23, 2000 report was advisory in nature and did not contain any
                                       formal recommendations.

                                       Data Accuracy on Procurement Actions
                                       Federal agencies are responsible, under Public Law 93-400, for collecting
      Misclassified                    and reporting procurement data to GSA’s Federal Procurement Data Center.
   contracting actions                 The Center then generates reports used to measure and assess the impact of
      resulted in a                    Federal procurements on the nation’s economy, the extent to which small
                                       business firms and small disadvantaged business firms are sharing in Federal
      $196 million                     procurements, the impact of full and open competition, and for other
  understatement of a                  procurement policy purposes. The Center uses 12 kinds of contract action
  procurement activity.                codes to classify procurement into different categories.

                                       While identifying procurement data for an ongoing audit, the OIG found that
                                       GSA had misclassified certain procurement actions that resulted in one type
                                       of procurement activity being understated by $196 million in FY 1999. We
                                       believed that other agencies may be misclassifying these action types as well
                                       because of the somewhat confusing action code descriptions. The

16 Semiannual Report to the Congress
Other Reviews of GSA Programs




    procurement activity level of the Government’s use of this one emerging
    procurement type is lost and is not readily discernible. In addition, over
    $70 million of yet another type of contracting action by GSA was being
    erroneously classified for reporting purposes.

    In our December 2, 1999 alert report to management, we suggested that more
    meaningful contract action code descriptions could be used to help Federal
    agencies accurately code their contract actions. More accurate information
    would enhance the ability of the Office of Management and Budget and
    Office of Governmentwide Policy to enact sound procurement policies.

    Our report to the Commissioner, Federal Technology Service, and the
    Associate Administrator, Office of Governmentwide Policy, was
    informational only and did not contain formal recommendations. It is not
    subject to the audit resolution process.




                                                     Office of Inspector General 17
                              Procurement and Related Activities




                                       GSA is responsible for providing working space for almost 1 million Federal
                                       employees. GSA, therefore, acquires buildings and sites, constructs facilities,
                                       and leases space, and also contracts for repairs, alterations, maintenance,
                                       and protection of Government-controlled space. GSA also manages the
                                       transfer and disposal of excess and surplus real and personal property and
                                       operates a Governmentwide service and supply system. To meet the needs of
                                       customer agencies, GSA contracts for billions of dollars worth of equipment,
                                       supplies, materials, and services each year. We conduct reviews and
                                       investigations in all these areas of activity to ensure that the taxpayers’
                                       interests are protected.

Significant OIG                        Over $3.4 Million in Civil Recoveries
Accomplishments                        During this period, the Government entered into 9 settlement agreements in
                                       which companies agreed to pay a total of over $3.4 million to resolve their
                                       potential civil liabilities under the False Claims Act. These agreements,
                                       negotiated by representatives of the Department of Justice and the GSA OIG,
                                       reflect the ongoing efforts of the OIG to pursue cases involving procurement
                                       fraud and other practices that threaten the integrity of the Government’s
                                       procurement process. Highlights of these cases follow:

                                       • McNaughton Book Service (McNaughton) agreed to pay $2,300,000 to
                                         settle its potential civil False Claims Act liability. The Government
                                         alleged that McNaughton misled GSA contracting officials in the course of
                                         negotiating its Multiple Award Schedule (MAS) contract to provide library
                                         lending services. A number of McNaughton’s customers received pricing,
                                         terms, and conditions that were much more favorable than those disclosed
                                         and offered to the Government. The misrepresentation led the
                                         Government to pay higher prices than it would have if it had known about
                                         the preferable terms offered to commercial customers.

                                       • Engineered Data Products, Inc. (EDP) agreed to pay $371,000 to settle its
                                         potential civil False Claims Act liability. The Government alleged that
                                         EDP misled GSA contracting officials in the course of negotiating its MAS
                                         contract to provide furniture for use with computer equipment. The com-
                                         pany failed to disclose that it gave its dealers year-end rebates based on the
                                         dealer’s sales during that year. The rebate should have been made avail-
                                         able to the Government as well. The company’s failure to disclose the
                                         rebates resulted in the Government paying more for EDP’s products than it
                                         would have, had it known of the rebates.

                                       • On March 13, 2000, the United States Attorney for the Western District of
                                         Washington entered into a settlement agreement with the Washington State
                                         Department of Transportation (WSDOT) and one of its employees for
                                         $300,000. The United States had filed a civil False Claims Act complaint


18 Semiannual Report to the Congress
Procurement and Related Activities




       in District Court alleging that several WSDOT employees wrongfully
       obtained and converted property under the Federal Excess Personal
       Property Program (Program). The purpose of the Program is to make
       available to other Federal, state, and local agencies, equipment and
       materials deemed excess by the Federal Government, but which still may
       hold value and utility to other agencies. The Program is administered by
       GSA. The property is in most cases stored and handled by Defense
       Reutilization and Marketing Offices.

       The primary employee involved was an authorized screener of excess
       property for WSDOT from 1986 through 1992. As a screener, the
       employee had the authority to select and obtain excess property from
       authorized Federal storage facilities for use by WSDOT. The Government
       alleged that during this period, the employee and several subordinates
       converted a substantial amount of this property for their personal use.
       WSDOT has agreed to pay the United States $300,000 to compromise and
       settle the case.

     • Datatape, Inc. paid the Government $285,000 to settle allegations, under
       the Truth in Negotiations Act and other common law remedies, that it
       failed to provide GSA negotiators with accurate cost and pricing
       information in negotiations for a GSA MAS contract for the supply of
       miniature digital recorders. The case arose as a qui tam suit brought under
       the civil False Claims Act, with the Government intervening and filing suit
       only on the non-fraud claims asserted by the relator. Specifically, the
       Government alleged that Datatape’s failure to provide accurate cost and
       pricing information in negotiations resulted in overpricing of the recorders
       under the MAS contract. A settlement was reached after discovery was
       concluded and very shortly before the case was scheduled to go to trial.

     • The United States Attorney’s Office for the Northern District of Texas has
       negotiated a settlement with Texas Tanks, Inc. (TTI), under which TTI will
       pay $62,822 to resolve its potential False Claims Act liability. TTI had a
       contract with GSA to supply aboveground fuel storage tanks to
       Department of Defense and National Guard facilities. Our investigation
       determined that TTI submitted three false invoices for fuel tanks that were
       never delivered. The settlement also compensated the Agency for
       reprocurement costs and interest.

     • Dahle North America, Inc. (Dahle) agreed to pay $60,000 to settle the
       Government’s claim under the civil False Claims Act that the company had
       substituted inferior shredders on its MAS contract. That contract required
       Dahle to provide high-capacity paper shredders to Government customers.
       An investigation determined that Dahle was supplying



                                                      Office of Inspector General 19
                              Procurement and Related Activities




                                         shredders with less horsepower than required. As a result, the Government
                                         purchasers faced frequent malfunctions and reduced efficiency.

                                       • Transworld Logistics, Ltd. (TWL), a lessee of Federal property, agreed to
                                         pay $55,000 to settle the Government’s claim that it violated the civil
                                         False Claims Act by subleasing Federal warehouse space to a commercial
                                         entity. Our investigation confirmed that TWL, which already had leased
                                         Federal warehouse space, illegally entered into a sublease, at a profit, with
                                         another commercial entity for additional Federal space not yet leased by
                                         TWL. When TWL subsequently did enter into a lease with GSA for the
                                         additional subleased space, it did not notify GSA of the sublease. Under
                                         the terms of TWL’s lease with GSA, TWL was prohibited from transfer-
                                         ring, assigning, or subletting any portion of its leased space without the
                                         prior written consent of GSA, and prohibited from using any part of the
                                         Federal warehouse space that it had not actually leased. The United States
                                         Attorney for the Western District of Washington had filed a civil complaint
                                         against TWL alleging fraud, breach of contract, unjust enrichment, and
                                         violations of the civil False Claims Act. A settlement was reached before a
                                         mediator, and the settlement agreement was memorialized in a judgment
                                         entered by the Federal District Court in Seattle on February 5, 2000.

                                       IT Procurement Marketing
     Customer needs                    GSA has evolved from being a mandatory source supplier for Federal
                                       agencies to a non-mandatory provider of competitively priced commercial
   satisfied under two                 products and professional services to the Federal civilian and military work-
  different contracting                force. To compete effectively for the Federal information technology (IT)
   approaches for IT                   market, GSA primarily uses two distinct contractual arrangements. One is
      products and                     the MAS Program, which provides the Federal client with the flexibility and
                                       convenience of ordering standard commercial products and services directly
          services.                    from the vendor. The other type of arrangement is a series of multiple award
                                       contracts that normally involve GSA providing assistance to clients in
                                       developing their IT requirements, soliciting bids, recommending vendors,
                                       monitoring job completion, paying vendors, and billing clients.

                                       We initiated a review because of the apparent overlap between the two
                                       approaches and a concern that the costs of duplication, if any, between the
                                       two procurement options could outweigh any benefits. We concluded that
                                       similar IT products and services being offered under both contractual
                                       arrangements satisfy specific needs of customers. The methods in which the
                                       products and/or services are offered are distinct, and depending on the needs




20 Semiannual Report to the Congress
Procurement and Related Activities




     and resources of the client, one procurement option can be more suitable than
     another. We found that GSA is recovering its administrative costs under both
     procurement options, and the overlap in contract offerings does not appear to
     be having a negative effect.

     Our report of March 21, 2000 contained no formal recommendations.

     Eight Debarred by U.S. Navy upon
     Recommendations by the OIG
     On December 22, 1999, based on evidence provided by the OIG, the U.S.
     Navy debarred Aid Maintenance Company, Inc., which operated under six
     different trade names, and its president and treasurer.

     An OIG investigation was initiated when it was alleged that a former GSA
     janitorial contractor was employing illegal aliens and not complying with
     wage labor laws regarding numerous Federal and state contracts.

     An OIG investigation substantiated the allegations. The resulting debarments
     were based upon a final decision issued by the U.S. Department of Justice on
     February 12, 1999. That decision found that the company had violated the
     employment provisions of the Immigration and Nationality Act by employing
     and continuing to employ illegal aliens on a Federal contract. Civil penalties
     against the company totaled $105,500.

     Our debarment recommendation was referred to the U.S. Navy because it
     held a contract with the maintenance company and was already considering
     action against it, but did not have all of the evidence uncovered by the OIG
     investigation. GSA has no current contracts with the company.

     The OIG debarment recommendation also presented evidence of possible
     immigration violations by the company regarding other public contracts and a
     history of labor law violations on Federal contracts.

     Associate of State Representative Pleads Guilty to
     Witness Tampering and Conspiracy Charges
     On January 25, 2000, an associate of a Pennsylvania State representative pled
     guilty in U.S. District Court to witness tampering and witness tampering
     conspiracy charges. This individual is scheduled for sentencing on April 17,
     2000. On the same date, the state representative pled not guilty to conversion
     of Federal property, witness tampering, and witness tampering conspiracy
     charges. She is scheduled to face trial on May 22, 2000.

     GSA joined an ongoing Federal Bureau of Investigation (FBI) when it was
     alleged that the representative and her associate were obtaining surplus


                                                      Office of Inspector General 21
                              Procurement and Related Activities




                                       Government property for their own benefit. Specifically, they were charged
                                       with converting for their own use a 30-kilowatt generator, a 500-gallon
                                       storage tank, and other items of surplus property belonging to GSA. The
                                       investigation also disclosed that the official and her associate attempted to
                                       persuade a witness to provide false information to FBI agents regarding the
                                       unlawful conversion to personal use of property obtained from the Federal
                                       Surplus Property Program.

                                       GSA Employee Terminated and Later Indicted for
                                       Misuse of Fleet Credit Cards
                                       On February 8, 2000, a GSA employee with the GSA Fleet Management
                                       Center was indicted for fraud and related activity in connection with credit
                                       card fraud. Previously, on December 6, 1999, the individual’s employment
                                       with GSA was terminated for misuse of credit cards. Adjudication of this
                                       case is pending.

                                       An OIG investigation was initiated when it was alleged that there was
                                       possible credit card fraud in the GSA Fleet Management Center. The
                                       investigation disclosed that, from April 1998 to July 1999, the GSA
                                       employee made purchases using fleet services credit cards for her personal
                                       use. Her duties included the ordering and destruction of credit cards. During
                                       the course of the investigation, the employee admitted that whenever she
                                       received replacement credit cards, which routinely came in identical pairs,
                                       she would issue one to the vehicle and keep the second “office card” for her
                                       own use. The employee fraudulently purchased items totaling over $32,000
                                       during a 15-month period.

                                       GSA Contracting Officer Pleads Guilty to Mail
                                       Fraud
                                       On March 10, 2000, a GSA contracting officer pled guilty in U.S. District
                                       Court to mail fraud. Previously, on March 1, 2000, the employee submitted a
                                       letter of resignation to GSA with an effective date of March 25, 2000 as part
                                       of the plea agreement.

                                       The investigation was initiated when it was alleged that the employee was
                                       providing confidential internal documents and information regarding GSA
                                       procurement actions to an officer of Turner Construction Company. The
                                       investigation determined that the employee fraudulently authorized GSA to
                                       pay for personal housing by making misrepresentations about the official
                                       Government purpose for the expenditure. The dollar amount of the fraud
                                       totaled $20,160. Sentencing is scheduled for June 14, 2000.




22 Semiannual Report to the Congress
                        Partnering with GSA Management




                            Value-Added Assistance Services
 The OIG continues          This period, the OIG has continued its efforts to provide value-added
  to provide value-         professional assistance to GSA through participation on Agency
 added professional         improvement task forces, committees, and working groups. These efforts
                            involve furnishing proactive advice and counsel to Agency task forces and
 assistance through         assigning OIG representatives to work with GSA managers while monitoring
participation on task       ongoing Agency initiatives. OIG representatives are available to advise
 forces, committees,        management at the earliest possible opportunity of potential problems, help
  and work groups.          ensure that appropriate management controls are provided when reinventing
                            Agency systems, and offer possible solutions when addressing complex
                            financial issues. The demand for this new partnership effort has been
                            significant. Some of the ongoing areas in which the OIG is involved include:

                            • NEAR Reengineering Project - Since FY 1996 and at the request of the
                              Chief Financial Officer, the OIG has been involved in the replacement of
                              the core GSA financial system (NEAR). OIG representatives participated
                              in developmental teams formed to address funds management, accounts
                              payable, accounts receivable, cost management, general ledger and
                              accounting classifications, and financial reporting. Our office further
                              observed the development of the initial NEAR replacement (Pegasys)
                              contract and Phase I requirements. This system will be implemented in
                              three phases and our involvement is expected to continue until it is fully
                              operational.

                            • Labor Distribution System - In October 1999, GSA’s Heartland Finance
                              Center began developing a labor distribution system and asked the OIG for
                              assistance in establishing a system of management controls and
                              implementing adequate information security controls. Additionally, our
                              office is participating in the labor distribution requirements team,
                              developing Public Buildings Service labor cost and accounting
                              methodology. In the near future, the OIG will be providing advice on
                              control techniques needed to properly record, reconcile, and report labor
                              cost data.

                            • Construction of St. Louis Courthouse - Since January 1997, the OIG has
                              participated in the Agency’s task force established to facilitate construction
                              of the Thomas Eagleton Courthouse in St. Louis, Missouri. The OIG
                              responds to task force members’ frequent requests for assistance regarding
                              such items as cost allowability, contracting options, funding options, and
                              contract provisions. Our office anticipates being involved in the task force
                              until the project is completed during the summer of 2000.




                                                                              Office of Inspector General 23
                               Partnering with GSA Management




                                       The OIG participates in a number of committees and working groups that
                                       directly affect our ability to better add value to the Agency. For example:

                                       The Information Technology (IT) Council, comprised of the Chief
                                       Information Officers of the various GSA Services and Staff Offices, meets to
                                       discuss information technology issues, including the annual Capital Planning
                                       process.

                                       GSA’s Data Warehousing Pilot working group meets to test the pilot system
                                       and help chart the direction for data warehousing in the Agency.

                                       The President’s Council on Integrity and Efficiency (PCIE) IT Roundtable
                                       meets to discuss various IT audit activities throughout the Inspector General
                                       community.

                                       The PCIE IT Security and Audit Workforce working groups meet to
                                       discuss what types of security audits the OIGs should perform and what types
                                       of actions can be taken to recruit and retain IT-qualified staff.

                                       The PCIE Government Performance and Results Act working group meets to
                                       discuss what the OIGs are doing and should be doing to most effectively
                                       assist their respective agencies in the implementation of the Act.

                                       In participating directly with the Agency on task forces, committees, and
                                       working groups, we are able to contribute our expertise and advice, and
                                       improve our own familiarity with the Agency’s rapidly changing systems.
                                       Furthermore, we benefit by expanding our knowledge of new initiatives
                                       within the Federal community. We nevertheless maintain our ability to
                                       independently audit and review programs. Our participation in the task
                                       forces is typically as a non-voting advisory member and we maintain a strict
                                       policy of excluding staff members who have served on developmental task
                                       forces from subsequent audits of the same subject areas.




24 Semiannual Report to the Congress
                            Prevention Activities




                          In addition to detecting problems in GSA operations, the OIG is responsible
                          for initiating actions to prevent fraud, waste, and abuse and to promote
                          economy and efficiency.

Significant Preaward      The OIG's preaward audit program provides information to contracting
                          officers for use in negotiating contracts. The pre-decisional, advisory nature
and Other Audits          of preaward audits distinguishes them from other audits. This program
                          provides vital and current information to contracting officers, enabling them
                          to significantly improve the Government's negotiating position and to realize
                          millions of dollars in savings on negotiated contracts. This period, the OIG
                          performed preaward audits of 61 contracts with an estimated value of nearly
                          $279 million. The audit reports contained over $39 million in financial
                          recommendations.

                          This period, three of the more significant Multiple Award Schedule contracts
                          we audited had projected Governmentwide sales totaling $18 million. The
                          audit findings recommended that $3.4 million in funds be put to better use.
                          The audits disclosed that these vendors offered prices to GSA that were not
                          as favorable as the prices other customers receive from these vendors.

                          We also audited several claims for increased costs. Two of the more
                          significant audits contained proposed amounts totaling $51.8 million, and
                          recommended adjustments of $10 million. In an audit of a construction
                          contract terminated for the convenience of the Government, we advised the
                          contracting officer that the contractor's claim should be adjusted to eliminate
                          unallowable pre-termination and post-termination material, labor, subcontrac-
                          tor, and bonding costs. In an audit of a claim for an increase in the rental rate
                          for office space, we advised the project manager that the lessor's claim should
                          be adjusted to eliminate excessive real estate taxes and an operating cost
                          escalation factor which is prohibited by the lease.

Federal Managers’         The Federal Managers’ Financial Integrity Act (FMFIA), Section 2, requires
                          GSA management to provide assurance to the President and the Congress that
Financial Integrity Act
                          Agency resources are protected from fraud, waste, mismanagement, and mis-
Review                    appropriation.

                          Each year, we review the Agency’s FMFIA process to assess its completeness
                          in reporting weaknesses and deficiencies. We advised management that
                          during FY 1999 we identified no new material weaknesses that should be
                          reported in the Administrator’s assurance statement.




                                                                            Office of Inspector General 25
                                         Prevention Activities




                                       We also advised management of our concerns about the adequacy of controls
                                       over credit card purchases, the integrity of data used by managers to make
                                       business decisions, and the security over GSA computer systems. We do not
                                       believe any of these issues rise to the level of a material control weakness,
                                       but reaffirm our continuing concern for vigilance and strengthening in
                                       management oversight and control.

Integrity Awareness                    The OIG presents Integrity Awareness Briefings nationwide to educate GSA
                                       employees on their responsibilities for the prevention of fraud and abuse, and
                                       to reinforce employees’ roles in helping to ensure the integrity of Agency
                                       operations.

                                       This period we presented 13 briefings attended by 406 regional employees.
                                       These briefings explain the statutory mission of the OIG and the methods
                                       available for reporting suspected instances of wrongdoing. In addition,
                                       through case studies and slides, the briefings make GSA employees aware of
                                       actual instances of fraud in GSA and other Federal agencies and thus help to
                                       prevent their recurrence. The briefings have in fact led to OIG investigations
                                       based on reports by GSA employees of suspected wrongdoing.

Employee Misconduct                    GSA Employee Pleads Guilty to Workers’
                                       Compensation Fraud
                                       An OIG investigation was initiated when information was received that
                                       indicated that a GSA maintenance mechanic was not incapacitated in
                                       accordance with workers’ compensation guidelines, as claimed. The
                                       investigation found that the maintenance mechanic had strained his back on
                                       the job on December 26, 1986. Under investigative surveillance, the
                                       mechanic was photographed working without disability.

                                       On December 2, 1999, the GSA maintenance mechanic pled guilty in U.S.
                                       District Court to misdemeanor fraud regarding his workers’ compensation
                                       claim. The mechanic admitted falsely certifying that he was not working in a
                                       wage earning or voluntary capacity. The mechanic was ordered to repay the
                                       Government $25,732, which represents the amount of money fraudulently
                                       received for 15 months.




26 Semiannual Report to the Congress
                         Prevention Activities




                       FPS Officer Terminated for Assault on Fellow
                       Officer; FPS Supervisor Disciplined
                       An investigation was initiated when it was alleged that a Federal Protective
                       Service (FPS) officer sprayed Oleoresin Capsicum (commonly known as
                       pepper spray) into the eyes of a fellow FPS officer while they were both on
                       duty at a traffic post in a Federal building. The evidence indicated the assault
                       was deliberate.

                       It was further revealed that the tour commander took no action to alleviate
                       the situation, prevent future confrontation, or seek medical attention for the
                       FPS officer who was sprayed. The OIG investigation found that the tour
                       commander failed to prepare an incident report, to report the incident to his
                       supervisors, or to annotate the incident in the logbook. Prosecution was
                       declined. The investigation was referred to the Regional Administrator who
                       initiated termination actions.

                       On November 5, 1999, the FPS officer and FPS tour commander were
                       terminated from their positions and from service with GSA. Upon appeal to
                       the Merit Systems Protection Board (MSPB), termination of the tour
                       commander was reversed and the MSPB ordered that the commander be
                       downgraded to a non-supervisory position. An MSPB hearing for the officer
                       is pending.

Hotline                The OIG Hotline provides an avenue for concerned employees and other
                       concerned citizens to report suspected wrongdoing. Hotline posters located
                       in GSA-controlled buildings, as well as brochures, encourage employees to
                       use the Hotline. We also launched our FraudNet Hotline platform to allow
                       Internet reporting of suspected wrongdoing. During this reporting period, we
                       received 890 Hotline reports. Of these, 90 complaints warranted further GSA
                       action, 17 warranted other Agency action, and 783 did not warrant action.

Financial Statements   The Chief Financial Officers Act of 1990 requires the OIG to conduct or
                       arrange for an annual audit of the GSA consolidated financial statements.
Audit                  The Act also requires a report on the GSA system of internal accounting
                       controls and compliance with laws and regulations. This audit was
                       performed, as in past years, by an independent public accounting firm (IPA),
                       with oversight and guidance from the OIG.

                       In the audit report dated February 28, 2000, transmitting the auditor’s
                       opinions, GSA received unqualified opinions on its financial statements and
                       on management’s assertions regarding the effectiveness of internal controls
                       over financial reporting and substantial compliance with the Federal
                       Financial Management Improvement Act of 1996. However, the IPA did
                       identify three reportable conditions concerning GSA’s need to improve GSA
                       entity-wide system security management and oversight, improve GSA system

                                                                         Office of Inspector General 27
                                         Prevention Activities




                                       development and implementation efforts, and improve the controls over the
                                       integrity of rent and leasing data. Additionally, the IPA reported a potential
                                       instance of noncompliance with a law arising from a $50 million advance
                                       between two GSA funds. The Counsel to the Inspector General issued an
                                       opinion stating that GSA violated the “Purpose Statute” as a result of this
                                       transaction. GSA’s Office of General Counsel disagreed with the OIG
                                       opinion. This matter was reported in the IPA’s report on its FY 1998
                                       financial statement audit, but was not resolved during the current fiscal year.
                                       We are continuing to work with the Agency to resolve this matter.

                                       The OIG conducted the portion of the audit related to the design and
                                       operation of the internal controls over the performance measures reported in
                                       GSA’s FY 1999 Annual Report Overview. Accordingly, we obtained an
                                       understanding of the design of the significant internal controls relating to the
                                       existence and completeness assertions, and determined whether they have
                                       been placed in operation, as required by the Office of Management and
                                       Budget Bulletin No. 98-08, as amended. In addition, we conducted limited
                                       risk assessments for six performance measures, two from each of GSA’s three
                                       major Services. We assessed the controls over the data used to compute these
                                       measures and reported that in some cases these controls were not in place, or
                                       that the data were materially incomplete.

                                       We also reviewed GSA’s internal controls over the payroll function, which is
                                       performed at the National Payroll Center (NPC) located within the Heartland
                                       Finance Center. NPC uses the automated Payroll Accounting and Reporting
                                       System to process payroll for GSA’s approximately 14,600 employees, and
                                       for a number of independent agencies and presidential commissions
                                       approximating 9,400 employees. We reported that the internal controls over
                                       the payroll functions appear to be operating effectively and efficiently to
                                       meet control objectives.




28 Semiannual Report to the Congress
Review of Legislation and Regulations




       The Inspector General Act of 1978 requires the OIG to review existing and
       proposed legislation and regulations to determine their effect on the economy
       and efficiency of the Agency’s programs and operations and on the
       prevention and detection of fraud and mismanagement.

       During this period, the OIG reviewed 199 legislative matters and
       28 proposed regulations and directives. The OIG provided significant
       comments on the following legislative items:

       • S. 1993, the Government Information Security Act. We provided the
         Senate Governmental Affairs Committee, as well as GSA and OMB, with
         comments on S. 1993, the Government Information Security Act. The bill
         would require OMB to formulate and implement Governmentwide policy
         on computer security for Federal agencies, and would empower OMB to
         enforce agencies’ conformance to those policies and other computer
         security-related legal requirements through the budget process or
         appropriations management process. The bill would also require that
         agencies formulate information security programs, and that agency
         Inspectors General conduct annual compliance and testing evaluations of
         such programs.

         In our comments, we emphasized our belief that information security is
         one of the top management challenges GSA faces today, and we
         summarized our Office’s recent efforts in this area, including, for example,
         a recent audit relating to various GSA Intranet/Internet security issues. We
         expressed our general support for the bill overall, especially its provisions
         vesting the OMB Director with enforceability mechanisms and the
         requirement for annual independent evaluations of agencies’ information
         security programs.

         We noted that the bill should consider addressing the shortage in the
         Federal Government labor force of information technology professionals,
         and related problems Federal agencies face with respect to recruiting and
         retaining such employees. We also noted that the section relating to the
         annual independent evaluation could be clarified with respect to the types
         of methodologies that could be used to perform the evaluation.

       • H.R. 809, The Federal Protective Service Reform Act. Our office provided
         comments to OMB and GSA on H.R. 809, the Federal Protective Service
         Reform Act, as amended. The bill would restructure the Federal Protective
         Service (FPS) by making it a separate service within GSA, and would
         grant expanded law enforcement authority to FPS officers.

         We noted that the bill presented a good opportunity to examine the FPS’
         mission and role, and to suggest legislative changes accordingly. We


                                                        Office of Inspector General 29
                           Review of Legislation and Regulations




                                         pointed out that two competing—and somewhat inconsistent—views exist
                                         of the organization: a traditional law enforcement agency model and a
                                         commercial building security services model. We noted that, if FPS were
                                         to move towards the law enforcement agency model, the bill should ensure
                                         that FPS law enforcement managers have line authority over FPS field
                                         personnel. We also noted that if FPS were to remain an organization with
                                         primarily building security functions, consideration should be given to
                                         narrowly tailoring any new proposed police powers contained in the bill to
                                         match that function and it should likely remain a component of the Public
                                         Buildings Service. The police power provisions, as set out by the bill,
                                         appeared to be generally too broad. We also made a variety of
                                         drafting recommendations to address technical problems in the bill.

                                       • Department of Justice Draft Bill 40: Statutory Law Enforcement Authority
                                         for OIGs. We provided OMB and GSA with comments on Draft Bill 40, a
                                         bill that would create a statutory mechanism empowering the Attorney
                                         General to authorize certain OIG criminal investigators to exercise law
                                         enforcement authority in connection with their official duties. Currently
                                         criminal investigators in these offices exercise law enforcement authority
                                         through annual, renewable Memoranda of Understanding (MOU) with the
                                         Department of Justice (DOJ). We noted that the draft bill represents a
                                         sound proposal for the extension of law enforcement authority to establish-
                                         ment OIGs: it would alleviate administrative and paperwork burdens
                                         associated with entering into annual deputation MOUs, while preserving
                                         all training, reporting and DOJ-supervision requirements. Generally, we
                                         strongly felt statutory law enforcement authority would enhance OIGs’
                                         overall effectiveness.

                                       In addition, the OIG provided comments on the following proposed
                                       regulations:

                                       • Evergreen Contracting Acquisition Letter. We provided GSA, specifically
                                         the Office of Acquisition Policy and the Federal Supply Service (FSS),
                                         with comments and suggested changes to a draft acquisition letter dealing
                                         with the Evergreen Contracting Initiative. Under this initiative, the
                                         Agency proposes lengthening Multiple Award Schedule (MAS) contract
                                         terms to 20 years: a 5-year base, together with three 5-year options. We
                                         noted that we had significant overall concerns with whether a sufficient
                                         business justification exists to implement Evergreen contracting in the
                                         MAS Program. We felt that any potential benefits realized from
                                         Evergreen, including mainly administrative savings and maintaining
                                         relationships with quality contractors, would likely be outweighed by the
                                         increased risk to the Government of bad MAS pricing posed by potentially
                                         locking in a contract price for up to a 20-year contract period.



30 Semiannual Report to the Congress
Review of Legislation and Regulations




         We also provided several substantive suggestions to the acquisition letter.
         First, we noted that the letter should provide that contracting officers
         obtain new pricing data if a contractor’s prices have changed and the
         contracting officer is seeking to exercise an Evergreen option under the
         MAS contract. We also suggested that the letter provide clearer guidance
         to contracting officers on seeking preaward audit assistance when
         considering whether to exercise the Evergreen options. We thereafter
         worked extensively with FSS and the Office of Governmentwide Policy to
         address our concerns. The bulk of our recommendations were adopted in
         the recently issued Evergreen acquisition letter.

       • FAR Case 98-300, Strom Thurmond Act Price Reasonableness Coverage.
         We provided the Federal Acquisition Regulation (FAR) Council with infor-
         mal comments on FAR Case 98-300, Item VI, an interim rule which
         implemented the determination of price reasonableness and commerciality
         provisions of the Strom Thurmond National Defense Authorization Act for
         FY 1999, Pub. L. 105-261. We made two comments with respect to the
         rule’s coverage. First, we noted that the use of the term commerciality
         throughout the rule might be confusing, as it connotes a Truth in
         Negotiations Act exemption that no longer exists. Second, we noted that
         the regulation’s provisions which set out justifications allowing a head of a
         contracting activity to authorize award to an offeror despite the offeror’s
         failure to provide adequate proposal information should be reexamined and
         made more restrictive.




                                                        Office of Inspector General 31
                      Statistical Summary of OIG Accomplishments




                                        Audit Reports Issued
                                        The OIG issued 111 audit reports. The 111 reports contained financial
                                        recommendations totaling $43,686,522, including $39,388,517 in
                                        recommendations that funds be put to better use and $4,298,005 in
                                        questioned costs. Due to GSA’s mission of negotiating contracts for
                                        Governmentwide supplies and services, most of the savings from
                                        recommendations that funds be put to better use would be applicable to other
                                        Federal agencies.

                                        Management Decisions on Audit Reports
                                        Table 1 summarizes the status of the universe of audits requiring management
                                        decisions during this period, as well as the status of those audits as of
                                        March 31, 2000. Two reports more than 6 months old were awaiting
                                        management decisions as of March 31, 2000; both of them were preaward
                                        audits, issued before February 10, 1996, which are not subject to the 6-month
                                        management decision requirement. Table 1 does not include 1 report issued
                                        to another agency this period. Table 1 also does not include 22 reports
                                        excluded from the management decision process because they pertain to
                                        ongoing investigations.


                          Table 1. Management Decisions on OIG Audits
                                                                            Reports with        Total
                                                           No. of             Financial       Financial
                                                          Reports         Recommendations Recommendations

 For which no management decision
 had been made as of 10/1/99
   Less than six months old                                  42                   25                 $21,689,975
   Six or more months old                                     5                    4                     393,039
 Reports issued this period                                 110                   59                  43,686,522
 TOTAL                                                      157                   88                 $65,769,536
 For which a management decision
 was made during the reporting period
   Issued prior periods                                      45                   28                 $21,879,671
   Issued current period                                     67                   29                  22,961,504
 TOTAL                                                      112                   57                 $44,841,175
 For which no management decision
 had been made as of 03/31/00
   Less than six months old                                  43                   30                 $20,725,018
   Six or more months old                                     2                    1                     203,343
 TOTAL                                                       45                   31                 $20,928,361



32 Semiannual Report to the Congress
                  Statistical Summary of OIG Accomplishments




                                   Management Decisions on Audit Reports with
                                   Financial Recommendations
                                   Tables 2 and 3 present the audits identified in Table 1 as containing financial
                                   recommendations by category (funds to be put to better use or questioned
                                   costs).




                    Table 2. Management Decisions on OIG Audits with
                     Recommendations that Funds be Put to Better Use

                                                             No. of                        Financial
                                                            Reports                    Recommendations

For which no management decision had
been made as of 10/1/99
  Less than six months old                                     17                         $17,900,867
  Six or more months old                                        3                             345,655
Reports issued this period                                     45                          39,388,517
TOTAL                                                          65                         $57,635,039
For which a management decision was
made during the reporting period
  Recommendations agreed to by
  management based on proposed
  •management action                                           —                          $37,718,082
  •legislative action                                          —                                   —
  Recommendations not agreed to
  by management                                                —                             348,589
TOTAL                                                          41                         $38,066,671
For which no management decision had
been made as of 3/31/00
  Less than six months old                                     23                         $19,365,025
  Six or more months old                                        1                             203,343
TOTAL                                                          24                         $19,568,368




                                                                                     Office of Inspector General 33
                      Statistical Summary of OIG Accomplishments




                          Table 3. Management Decisions on OIG Audits
                                     with Questioned Costs

                                                            No. of                       Questioned
                                                           Reports                         Costs

 For which no management decision
 had been made as of 10/1/99
   Less than six months old                                     8                        $3,789,108
   Six or more months old                                       1                            47,384
 Reports issued this period                                    14                         4,298,005
 TOTAL                                                         23                        $8,134,497
 For which a management decision
 was made during the reporting
 period
   Disallowed costs                                            —                         $6,607,339
   Costs not disallowed                                        —                            833,004
 TOTAL                                                         16                        $7,440,343*
 For which no management decision
 had been made as of 3/31/00
   Less than six months old                                     7                        $1,359,993
   Six or more months old                                       0                                 0
 TOTAL                                                          7                        $1,359,993

 *Includes $665,839 that management decided to seek that exceeded recommended amounts.




34 Semiannual Report to the Congress
           Statistical Summary of OIG Accomplishments




                      Investigative Workload
                      The OIG opened 105 investigative cases and closed 81 cases during this
                      period. In addition, the OIG received and evaluated 65 complaints and
                      allegations from sources other than the Hotline that involved GSA employees
                      and programs. Based upon our analyses of these complaints and allegations,
                      OIG investigations were not warranted.

                      Referrals
                      The OIG makes criminal referrals to the Department of Justice or other
                      authorities for prosecutive consideration and civil referrals to the Civil
                      Division of the Department of Justice or U.S. Attorneys for litigative
                      consideration. The OIG also makes administrative referrals to GSA officials
                      on certain cases disclosing wrongdoing on the part of GSA employees,
                      contractors, or private individuals doing business with the Government.

                   Table 4. Summary of OIG Referrals

Type of Referral                      Cases                                  Subjects
Criminal                                43                                      70
Civil                                   18                                      38
Administrative                          71                                     112
TOTAL                                  132                                     220

                      In addition, the OIG made 5 referrals to other Federal activities for further
                      investigation or other action and 13 referrals to GSA officials for information
                      purposes only.

                      Actions on OIG Referrals
                      Based on these and prior referrals, 23 cases (36 subjects) were accepted for
                      criminal prosecution and 8 cases (13 subjects) were accepted for civil
                      litigation. Criminal cases originating from OIG referrals resulted in
                      17 indictments/informations and 9 successful prosecutions. OIG civil
                      referrals resulted in 8 cases being accepted for civil action and 9 case
                      settlements. Based on OIG administrative referrals, management debarred
                      29 contractors, suspended 1 contractor, and took 9 personnel actions against
                      employees.




                                                                       Office of Inspector General 35
                      Statistical Summary of OIG Accomplishments




                                        Monetary Results
                                        Table 5 presents the amounts of fines, penalties, settlements, judgments, and
                                        restitutions payable to the U.S. Government as a result of criminal and civil
                                        actions arising from OIG referrals.

                                        In addition, the OIG had administrative recoveries of $1,000,679 during the
                                        course of its investigations.




                                  Table 5. Criminal and Civil Recoveries
                                                             Criminal                          Civil

            Fines and Penalties                             $ 13,400                     $      —

            Settlements and Judgments                           —                         3,445,922

            Restitutions                                     210,710                           —

            TOTAL                                           $224,110                     $3,445,922




36 Semiannual Report to the Congress
APPENDICES
Office of Inspector General 39
40 Semiannual Report to the Congress
                    Appendix I–Significant Audits from Prior Reports




Under the Agency audit management decision process,          Performance-Based Buildings
the GSA Office of the Chief Financial Officer, Office        Services Contracts
of the Controller, is responsible for tracking the           Period First Reported: April 1, 1999 to September 30, 1999
implementation of audit recommendations after a
management decision has been reached. That office            The review evaluated the nationwide program for
furnished the following status information.                  mechanical services. The report contained six recom-
                                                             mendations; none has been implemented.
Nineteen audits highlighted in prior reports to the
Congress have not yet been fully implemented; all are        The recommendations include establishing a national
being implemented in accordance with currently               quality assurance program; developing an approach for
established milestones.                                      inspection of services; ensuring that contractors are held
                                                             accountable for repairs; maintaining accurate inventories;
Assessing Acquisition System                                 evaluating quality control programs; and ensuring
Implementation                                               accuracy of inventory and functioning of building
                                                             systems. They are scheduled for completion between
Period First Reported: April 1, 1999 to September 30, 1999   April 15, 2000 and January 15, 2001.
The review evaluated a commercially available electronic
acquisition system intended to improve the acquisition       Controls over RWA Expenditures
process. The report contained five recommendations; two      Period First Reported: April 1, 1999 to September 30, 1999
have been implemented.                                       The review assessed the controls over GSA’s
                                                             Reimbursable Work Authorization Process. The report
The recommendations include developing a strategy for        contained two recommendations; none has been
an improved system; ensuring this system includes a
                                                             implemented.
transition and training plan; and developing performance
measures for the system. They are scheduled for              The recommendations involve reviewing financial
completion between April and September 15, 2000.             data; and adjusting controls, updating policies, and
                                                             providing training. They are scheduled for completion
Refining Lease Administration                                between October 15, 2000 and January 15, 2001.
Period First Reported: April 1, 1999 to September 30, 1999
The review evaluated lease administration at a regional      Evaluating the Industrial Funding Fee
office. The report contained three recommendations; two      Period First Reported: April 1, 1999 to September 30, 1999
have been implemented.                                       The review assessed the progress GSA was making to set
                                                             and collect its industrial funding fee. The report
The remaining recommendation involves a lack of park-        contained five recommendations; two have been closed.
ing for heavy vehicles. It is scheduled for completion by
May 15, 2000.                                                The recommendations include revising controls to include
                                                             a risk-based approach to verify contractor sales data and
Controls over Small Purchases                                to strengthen controls over the fee collection process.
Period First Reported: April 1, 1999 to September 30, 1999   They are scheduled for completion between June 15 and
The review focused on the controls for a regional            October 15, 2000.
procurement program. The report contained three              Local Area Network Security Risks
recommendations; two have been implemented.
                                                             Period First Reported: April 1, 1999 to September 30, 1999
The remaining recommendation involves implementing           The review focused on the local area network (LAN)
the procedures and controls of the purchase card hand-       security. The report contained four recommendations;
book. It is scheduled for completion by May 15, 2000.        none has been implemented.


                                                                                             Office of Inspector General 39
                     Appendix I–Significant Audits from Prior Reports




The recommendations include developing LAN security           Security Enhancements in Federal
plans; establishing processes for managing accounts and       Buildings
contingency planning; identifying controls for remote
                                                              Period First Reported: April 1, 1998 to September 30, 1998
access to LANs; and providing security awareness
training. They are scheduled for completion between           The review evaluated GSA’s program for upgrading
August 15, 2000 and January 15, 2001.                         security in Federal buildings. The report contained six
                                                              recommendations; four have been implemented.
Access to Building Design Plans
Period First Reported: October 1, 1998 to March 31, 1999      The remaining recommendations involve establishing an
The review focused on the accessibility to the general        inventory over x-ray units and portable equipment, and
public of building plans. The report contained two            tracking and reporting cost data for future counter-
recommendations; one has been implemented.                    measures. They are both scheduled for completion by
                                                              August 15, 2000.
The remaining recommendation involves sharing the
results of the review with appropriate Agency officials. It   Travel Management Program Funding
is scheduled for completion by May 15, 2000.                  Fee
Initiatives to Improve Space                                  Period First Reported: April 1, 1998 to September 30, 1998

Alterations                                                   The review assessed GSA’s Travel Management
Period First Reported: October 1, 1998 to March 31, 1999
                                                              Program funding fee. The report contained seven
                                                              recommendations; four have been implemented.
The review assessed GSA’s information system designed
to manage vacant space. The report contained three
                                                              The remaining recommendations include combining two
recommendations; two have been implemented.
                                                              forms into one; developing a database; and establishing
The remaining recommendation involves standardizing           one industrial funding fee for all customers. They are
data requirements. It is scheduled for completion by          scheduled for completion by April 15, 2000.
June 15, 2000.
                                                              Information Systems Security
Security Standards for New Buildings                          Period First Reported: April 1, 1998 to September 30, 1998
Period First Reported: October 1, 1998 to March 31, 1999
                                                              The review assessed the security measures of six major
The review evaluated security standards for new and
                                                              Internet and Intranet GSA applications. The report con-
renovated Federal buildings. The report contained two
                                                              tained four recommendations; one has been implemented.
recommendations; neither has been implemented.
                                                              The remaining recommendations include establishing
The recommendations include developing a policy that
defines roles and responsibilities of individuals involved    an Information Technology (IT) Security Program;
in building standards, and creating security                  specifying roles and responsibilities to ensure security;
standards for newly acquired leased space. They are           and basing IT security decisions on risk
scheduled for completion between January and                  assessments. They are scheduled for completion between
August 15, 2001.                                              July 15 and December 15, 2000.




40 Semiannual Report to The Congress
                    Appendix I–Significant Audits from Prior Reports




Megacenter Dispatch Services                                  Administration of Real Estate Taxes
Period First Reported: October 1, 1997 to March 31, 1998      Period First Reported: April 1, 1997 to September 30, 1997
The review focused on GSA’s plans to consolidate              The review examined the real estate tax administration
security control centers into four megacenters. The           of GSA’s leases. The report contained two recommenda-
report contained four recommendations; none has been          tions; one has been implemented.
implemented.
                                                              The remaining recommendation involves modifying
The recommendations include developing alternate              contract procedures to ensure the Government receives
access procedures; developing contingency plans to            its share of reductions in real estate taxes. While all
continue the dispatch function during natural disasters;      pertinent actions have been taken, it remains open until all
upgrading alarm systems; and implementing a preventive        recovery actions are completed. It is scheduled for
alarm maintenance program. They are scheduled for             completion by June 15, 2000.
completion by June 15, 2001.
                                                              Debarment Program
Contract Workload Management                                  Period First Reported: October 1, 1996 to March 31, 1997
Period First Reported: October 1, 1997 to March 31, 1998
                                                              The review identified opportunities for improving
The review identified opportunities for improving             the Debarment Program. The report contained two
workload management. The report contained one                 recommendations; one has been implemented.
recommendation; it has not yet been implemented.
                                                              The remaining recommendation involves modifying
The recommendation involves the need to automate              the new contractor information system. GSA submitted a
key activities of the contracting process. It is scheduled    new action plan to the OIG on March 17, 2000. GSA is
for completion by December 15, 2000.                          currently awaiting an opinion from the OIG.

Federal Protective Service                                    Aircraft Management
                                                              Period First Reported: October 1, 1995 to March 31, 1996
Investigation Office
Period First Reported: April 1, 1997 to September 30, 1997    The review identified opportunities for improving GSA’s
                                                              program to assist civilian agencies with the management
The evaluation focused on a review of the Federal             and cost-effectiveness of their aircraft operations.
Protective Service’s criminal investigation activities. The   The report contained five recommendations; four have
report contained five recommendations; three have been        been implemented.
implemented.
                                                              The remaining recommendation concerns the identification
The remaining recommendations include establishing            of aircraft data necessary for making informed decisions
measurable performance standards and improving                and is scheduled for completion by July 15, 2000.
program accountability.     They are scheduled for
completion by April 15, 2000.




                                                                                               Office of Inspector General 41
                                  Appendix II–Audit Report Register

                                                                                         Financial
                                                                                    Recommendations
                                                                               Funds to            Questioned
Date of         Audit                                                         Be Put To         (Unsupported)
Report          Number                    Title                               Better Use             Costs


(Note: Because some audits pertain to contracting award or actions which
have not yet been completed, the financial recommendations to these reports
are not listed in this Appendix.)

PBS Internal Audits
10/15/99         A995175 Alert Report on the Region 2 Security Guard
                         Program

11/17/99         A995267 Survey of the Mid-Atlantic Public Buildings
                         Service, Property Management Center

11/18/99         A995175 Alert Report on the Region 7 Security Guard
                         Program

11/29/99         A995318 Follow-up Report on Security at a Federal Facility

12/15/99         A995099 Audit of the Public Buildings Service, Property
                         Management Center in Birmingham, Alabama

12/21/99         A995263 Review of Small Purchases, 300 North Los
                         Angeles Street, Property Management Center,
                         Public Buildings Service, Pacific Rim Region

12/21/99         A995210 Audit of Custodial Services Contracts in the
                         National Capital Region

01/10/00         A995264 Review of Simplified Procurements in the Boise,
                         Idaho, Customer Service Center

01/21/00         A995160 Audit of the Public Buildings Service, Property
                         Management Center in Detroit, Michigan

02/16/00         A995196 Audit of PBS’ Environmental Management
                         Program

03/02/00         A995188 Management Control Review of Controls Over
                         Multiple Award Construction Term Contracts,
                         Pacific Rim Region




42 Semiannual Report to The Congress
                         Appendix II–Audit Report Register

                                                                                    Financial
                                                                               Recommendations
                                                                          Funds to            Questioned
Date of    Audit                                                         Be Put To         (Unsupported)
Report     Number                  Title                                 Better Use             Costs


03/28/00   A995175 Audit of the Federal Protective Service’s Contract
                   Guard Program

03/30/00   A995287 Limited Audit of the Public Buildings Service
                   Performance Measures: “Percent of Construction
                   Projects Delivered on Time” and “Percent of Repairs
                   and Alterations Projects Delivered on Time”

03/30/00   A995321 Review of General Services Administration Energy
                   Conservation Program in the Greater Southwest
                   Region

03/31/00   A995010 PBS Needs to Complete STAR Development and
                   Implement Management and System Controls to
                   Fully Realize Improved Capabilities

PBS Contract Audits
10/04/99   A995334 Review of Proposed Overhead and Time Value of
                   Money Rates: Golub-WEGCO Kansas City I,
                   L.L.C., Lease Number GS-06P-79048

10/04/99   A995314 Preaward Audit of Supplemental Architect and
                   Engineering Contract: Watson/Tate Architects, Inc.,
                   Solicitation Number GS-04P-99-RDD-0005

10/04/99   A995275 Preaward Audit of Change Order Proposal to
                   Contract Number GS-02P93CUC0071 for the Final
                   Phase of the African Burial Ground Project, Howard
                   University

10/12/99   A995282 Preaward Audit of Cost or Pricing Data: Ross
                   Barney + Jankowski, Inc., Solicitation Number
                   GS06P99GZC0010

10/13/99   A995262 Preaward Audit of a Claim: Metropolitan Steel
                   Industries, Inc., Subcontractor to Turner
                   Construction Company, Contract Number GS-02P-
                   95-DTC-0014(N)




                                                                                Office of Inspector General 43
                                  Appendix II–Audit Report Register

                                                                                      Financial
                                                                                 Recommendations
                                                                            Funds to            Questioned
Date of         Audit                                                      Be Put To         (Unsupported)
Report          Number                  Title                              Better Use             Costs


10/13/99         A995313 Preaward Audit of Supplemental Architect and
                         Engineering Contract: Liollio Associates, Inc.,
                         Solicitation Number GS-04P-99-RDD-0005

10/19/99         A000798 Preaward Audit of Architect and Engineering
                         Services Contract: Oak Point Associates,
                         Solicitation Number GS-01P-99-BZD-0009

10/26/99         A995278 Preaward Audit of a Claim: Midlantic Erectors,
                         Inc., Subcontractor to Metropolitan Steel
                         Industries, Inc., Contract Number GS-02P-95-
                         DTC-0014(N)

10/28/99         A995290 Audit of Termination Settlement Proposal: HBS
                         National Corporation, Contract Number
                         GS06P97GXC0020

11/01/99         A995332 Preaward Audit of Cost or Pricing Data: Cupples
                         Products, Inc., Solicitation Number GS-06P-
                         99-GZC-0309

11/01/99         A995329 Preaward Audit of Architect and Engineering
                         Services Contract:    EPC Consultants, Inc.,
                         (Consultant to Huber, Hunt & Nichols, Inc.),
                         Solicitation Number GS-09P-99-KTC-0020

11/04/99         A995272 Preaward Audit of a Claim: Metropolitan Steel
                         Industries, Inc., Subcontractor to Turner
                         Construction Company, Contract Number GS-
                         02P-95-DTC-0014(N)

11/10/99         A995323 Preaward Audit of Architect and Engineering
                         Proposal: Morphosis, Solicitation Number GS-
                         09P-99-KTC-0019

11/10/99         A995271 Preaward Audit of Architect and Engineering
                         Services Contract: HLW International LLP,
                         Contract Number GS-02P-93-CUC-0062

11/10/99         A995324 Preaward Audit of Architect and Engineering
                         Services Contract: SMP/SHG, Inc., Solicitation
                         Number GS-09P-99-KTC-0019




44 Semiannual Report to The Congress
                         Appendix II–Audit Report Register

                                                                                   Financial
                                                                              Recommendations
                                                                         Funds to            Questioned
Date of    Audit                                                        Be Put To         (Unsupported)
Report     Number                  Title                                Better Use             Costs


11/18/99   A995311 Preaward Audit of a Claim: Armour & Sons
                   Electric, Incorporated, Subcontractor to SAE
                   Americon Mid-Atlantic, Incorporated, Contract
                   Number GS-03P-91-CDC-0006

11/29/99   A000820 Limited Review of Subcontractor Payments: Metro
                   Panel/Metro Frame’ng Joint Venture, LLC,
                   Subcontractor to Turner Construction Company,
                   Contract Number GS-02P-95-DTC-0014(N)

11/30/99   A995289 Preaward Audit of Architect and Engineering
                   Services Contract: Accu-Cost Construction
                   Consultants, Inc., Subcontractor to HLW
                   International LLP, Contract Number GS-02P-93-
                   CUC-0062

12/06/99   A000852 Preaward Audit of Architect and Engineering
                   Services Proposal: DLR Group, Solicitation
                   Number GS-10P-99-LTC-0006

12/09/99   A995180 Audit of Termination Claim: Kobane, Inc., Contract
                   Number GS-11P95MQC0037

12/09/99   A000838 Limited Review of Rental Rates: Newark Center
                   Building Company, Lease Number GS-02B-22847

12/09/99   A000824 Report on Audit of Claim for Increased Costs:
                   Component Assembly Systems, Inc., Contract
                   Number GS02P94CUC0039(N)

12/13/99   A995286 Preaward Audit of Cost or Pricing Data: Hampshire
                   College, Subcontractor to Howard University,
                   Contract Number GS-02P-93-CUC-0071

12/16/99   A000823 Preaward Audit of Cost or Pricing Data: Berkebile,
                   Nelson, Immenschuh, McDowell Incorporated,
                   Solicitation Number GS06P99GYC0008

12/21/99   A995273 Preaward Audit of Architect and Engineering
                   Services Contract: Narov Associates, Subcontractor
                   to HLW International LLP, Contract Number GS-
                   02P-93-CUC-0062




                                                                               Office of Inspector General 45
                                  Appendix II–Audit Report Register

                                                                                          Financial
                                                                                     Recommendations
                                                                                Funds to            Questioned
Date of         Audit                                                          Be Put To         (Unsupported)
Report          Number                    Title                                Better Use             Costs


12/23/99         A000883 Limited Scope Preaward Audit of Cost or Pricing
                         Data: Singleton Electric Co., Inc., a Subcontractor
                         to Morse Diesel International, Inc., Contract
                         Number GS-11P-96-MKC-0015

01/03/00         A000817 Preaward Audit of Architect and Engineering
                         Services Contract: Moshe Safdie and Associates,
                         Inc., Solicitation Number GS-01P-99-BWC-0016

01/05/00         A000903 Limited Scope Preaward Audit of Cost or Pricing
                         Data: John J. Kirlin, Inc., a Subcontractor to
                         Morse Diesel International, Inc., Contract Number
                         GS-11P-96-MKC-0015

01/06/00         A000877 Preaward Audit of Architect and Engineering
                         Services Contract: Swanke, Hayden, & Connell
                         Architects, Solicitation Number GS-11P-
                         99-ZGC-0061

01/07/00         A000885 Preaward Audit of Architect and Engineering
                         Proposal: Ove Arup and Partners California,
                         Solicitation Number GS-09P-99-KTC-0019

01/11/00         A995325 Preaward Audit of a Claim: Standard Refrig-
                         Co., Inc., Subcontractor to Trataros Construction,
                         Inc., Contract Number GS-02P-96-DTC-0033

01/11/00         A000819 Preaward Audit of Architect and Engineering
                         Services Contract: Gordon H. Smith Corporation,
                         Subcontractor to HLW International LLP, Contract
                         Number GS-02P-93-CUC-0062

01/19/00         A000878 Preaward Audit of Architect and Engineering
                         Services Contract: Huber, Hunt and Nichols, Inc.,
                         Solicitation Number GS-09P-99-KTC-0020

01/19/00         A995280 Preaward Audit of a Termination for Convenience
                         Claim: SAE Americon Mid-Atlantic, Incor-
                         porated, Contract Number GS-03P-91-CDC-0006

01/20/00         A000905 Audit of Proposed Overtime Billing Rates:
                         Leonard Masonry, Inc., Contract Number
                         GS06P99GZC0301




46 Semiannual Report to The Congress
                         Appendix II–Audit Report Register

                                                                                     Financial
                                                                                Recommendations
                                                                           Funds to            Questioned
Date of    Audit                                                          Be Put To         (Unsupported)
Report     Number                   Title                                 Better Use             Costs


01/20/00   A000816 Audit of Cost or Pricing Data: DHP Systems, Inc.,
                   Contract Number GS06P99GZC0312

02/03/00   A000921 Preaward Audit of Small Business Administration
                   8(a) Pricing Proposal: Johnson Management Group
                   CFC, Inc., Solicitation Number GS-04P-00-RDC-
                   0003

02/04/00   A000930 Preaward Audit of Change Order Proposal:
                   NCS/ICS Joint Venture, Contract Number
                   GS06P99GZC0302

02/18/00   A000799 Postaward Audit of Cost or Pricing Data:                                   $307,004
                   Montgomery KONE, Inc., Contract Number
                   GS06P99GZC0306

02/23/00   A000937 Audit of Termination Claim: CJP Contractors, Inc.,
                   Contract Number GS-11P93MKC0081

03/06/00   A000963 Preaward Audit of a Claim: Trataros
                   Construction, Inc., Contract Number GS-02P-96-
                   DTC-0033

03/20/00   A000959 Preaward Audit of Change Order Proposal: Sachs
                   Electric Company, Contract Number GS-06P-
                   99-GZC-0300

03/23/00   A000925 Audit of Claims for Increased Costs: Ellerbe Becket
                   Architects and Engineers, P.C., The Federal Triangle
                   Project

FSS Internal Audits
12/06/99   A995266 Advisory Review of GSA Fleet’s Monitoring of
                   Citibank Visa Fleet Card Transactions

01/06/00   A995287 Limited Audit of the Federal Supply Service’s
                   “Government Airfare Savings” Performance
                   Measure

01/28/00   A995162 Review of Controls Over Federal Supply Service
                   Payments

02/29/00   A995326 Review of Management Controls Over Purchase
                   Cards, Federal Supply Service, Pacific Rim Region


                                                                                 Office of Inspector General 47
                                  Appendix II–Audit Report Register

                                                                                        Financial
                                                                                   Recommendations
                                                                              Funds to            Questioned
Date of         Audit                                                        Be Put To         (Unsupported)
Report          Number                   Title                               Better Use             Costs


03/14/00         A000888 Review of the Federal Personal Property Donation
                         Program: State of New Mexico

03/29/00         A995287 Limited Audit of the Federal Supply Service’s
                         Reutilization and Donation of Excess Personal
                         Property Performance Measure

03/31/00         A000955 Review of Productivity Refund for the Voyager
                         Fleet Services Card

FSS Contract Audits
10/12/99         A995284 Sales Data Analysis for Multiple Award Schedule
                         Contract: Motorola, Incorporated, Contract
                         Number GS-35F-1125-D for the Period July 25,
                         1998 Through April 2, 1999

10/22/99         A995298 Postaward Audit of Multiple Award Schedule                               $4,753
                         Contract: Classic Medallics, Inc., Contract
                         Numbers GS-07F-8451C and GS-07F-9862H

10/29/99         A995315 Preaward Audit of Cost or Pricing Data:
                         PerformTech, Inc., Solicitation Number 2FYG-JI-
                         94-0004-B4

11/09/99         A995328 Preaward Audit of Multiple Award Schedule
                         Contract: Lab-Volt Systems, Inc., Extension to
                         Contract Number GS-02F-0860G

11/29/99         A995304 Preaward Audit of Multiple Award Schedule
                         Contract for the Extension Period October 1, 1999
                         Through September 30, 2004:        Coastal Video
                         Communications Corp., Contract Number GS-
                         02F-9309C

11/30/99         A000867 Preaward Audit of Multiple Award Schedule
                         Contract: Cetrom Consulting Engineering, Inc.,
                         Solicitation Number TFTP-ML-980874-B

12/06/99         A995291 Postaward Audit of Overbillings, Multiple                               $49,682
                         Award Schedule Contract: Dec Art Designs, Inc.,
                         Contract Number GS-03F-5106C, for the Interim
                         Period July 1, 1995 Through June 30, 1999




48 Semiannual Report to The Congress
                         Appendix II–Audit Report Register

                                                                                     Financial
                                                                                Recommendations
                                                                           Funds to            Questioned
Date of    Audit                                                          Be Put To         (Unsupported)
Report     Number                   Title                                 Better Use             Costs


12/06/99   A000884 Postaward Audit of Overbillings, Multiple                                  $174,575
                   Award Schedule Contract: National Education
                   Training Group, Inc., Contract Number GS-02F-
                   0429D, for the Interim Period September 19, 1996
                   Through May 24, 1999

12/08/99   A995330 Preaward Audit of Multiple Award Schedule
                   Contract:   Caswell International Corporation,
                   Contract Number GS-02F-0434D

12/10/99   A000875 Preaward Audit of Cost or Pricing Data: EMAssist,
                   Inc., Solicitation Number TFTP-98-SW-8999-B

01/07/00   A000821 Preaward Audit of the Extension of Multiple Award
                   Schedule Contract Number GS-02F-1407H:
                   Development Dimensions International, Inc.

01/07/00   A000895 Preaward Audit of Multiple Award Schedule
                   Contract: Firearms Training Systems, Inc., Contract
                   Number GS-02F-0414D

01/19/00   A000822 Preaward Audit of Multiple Award Schedule
                   Contract for the Extension Period October 1, 1999
                   Through September 30, 2004: ATA Defense
                   Industries, Inc., Contract Number GS-02F-1408H

01/20/00   A72124    Postaward Audit of Multiple Award Schedule                               $448,298
                     Contract: Engineered Data Products, Inc., Contract
                     Number GS-00F-5053A

01/20/00   A000881 Postaward Audit of Multiple Award Schedule                                    $2,772
                   Contract for the Period December 15, 1997 Through
                   September 30, 1999: Development Dimensions
                   International, Inc., Contract Number GS-02F-1407H

01/28/00   A000818 Preaward Audit of Multiple Award Schedule
                   Contract: Laerdal Medical Corporation, Extension
                   to Contract Number GS-02F-9380C

02/03/00   A000920 Preaward Audit of Multiple Award Schedule
                   Contract: Sales and Management Training, Inc.,
                   Contract Number GS-02F-9319C




                                                                                 Office of Inspector General 49
                                  Appendix II–Audit Report Register

                                                                                         Financial
                                                                                    Recommendations
                                                                               Funds to            Questioned
Date of         Audit                                                         Be Put To         (Unsupported)
Report          Number                     Title                              Better Use             Costs


02/08/00         A995167 Price Adjustments on Multiple Award Schedule
                         Contract: National Education Training Group, Inc.,
                         Contract Number GS-02F-0429D for the Interim
                         Period March 1, 2000 Through March 31, 2000

02/15/00         A40910      Postaward Audit of Multiple Award Schedule                        $1,634,161
                             Contract: McNaughton Book Service, Contract
                             Number GS-02F-52166 for the Period
                             February 24, 1989 to July 31, 1992

02/17/00         A000923 Preaward Audit of Multiple Award Schedule
                         Contract: Shamrock Scientific Specialty Systems,
                         Inc., Contract Number GS-14F-9732C

02/24/00         A000896 Limited Scope Postaward Audit of Multiple                                $17,649
                         Award Schedule Contract: Instrumentation
                         Laboratory, Contract Number GS-24F-1293C

03/01/00         A71858      Postaward Audit of Multiple Award Schedule                          $623,771
                             Contract: Seco Products Corporation, Contract
                             Number GS-07F-6647A for the Period January 29,
                             1993 Through September 29, 1996

03/02/00         A000934 Preaward Audit of Multiple Award Schedule
                         Contract: TimeMed Labeling Systems, Inc.,
                         Contract Number GS-14F-0150D

03/02/00         A995213 Postaward Audit of Multiple Award Schedule                              $529,842
                         Contract: White Systems, Inc., Contract Number
                         GS-28F-1043C

03/06/00         A000948 Preaward Audit of Multiple Award Schedule
                         Contract: 3M Company, Contract Number GS-
                         14F-0161D

03/07/00         A000933 Limited Scope Preaward Review of Multiple
                         Award Schedule Contract for the Extension Period
                         February 29, 2000 Through February 28, 2005:
                         Charlotte’s Office Boutique, Contract Number GS-
                         14F-9725C




50 Semiannual Report to The Congress
                         Appendix II–Audit Report Register

                                                                                       Financial
                                                                                  Recommendations
                                                                             Funds to            Questioned
Date of    Audit                                                            Be Put To         (Unsupported)
Report     Number                   Title                                   Better Use             Costs


03/09/00   A000876 Interim Postaward Audit of Multiple Award                                         $534
                   Schedule Contract: Yeatts Contract, Incorporated,
                   Contract Number GS-21F-0094H

03/09/00   A000911 Preaward Audit of Multiple Award Schedule
                   Contract for the Extension Period February 29, 2000
                   Through February 28, 2005: Adams Marketing
                   Associates, Inc., Contract Number GS-14F-9734C

03/10/00   A000936 Preaward Audit of Multiple Award Schedule
                   Contract for the Extension Period February 29, 2000
                   Through February 28, 2005: George W. Allen Co.,
                   Inc., Contract Number GS-14F-0177D

03/29/00   A81830    Postaward Audit of Standardization and                                     $433,876
                     Control of Industrial-Quality Tools Contract: Wright
                     Tool Company, Contract Number GS-00F-14609 for
                     the Period March 8, 1991 Through February 29,
                     1996

03/29/00   A995122 Postaward Audit of Standardization and                                        $51,765
                   Control of Industrial-Quality Tools Contract: Wright
                   Tool Company, Contract Number GS-00F-14609 for
                   the Interim Period March 1, 1996 Through April 30,
                   1998

03/30/00   A000804 Preaward Audit of Contract Number                GS-
                   22F-97501: Wright Express Corporation

FTS Internal Audits
11/03/99   A995301 Management Assistance Review: Payments to
                   Small Business Administration Contractors

12/02/99   A995288 Alert Report on Reporting Procurement Actions to
                   the Federal Procurement Data Center

01/31/00   A995287 Limited Audit of the Federal Technology Service
                   Performance Measure: “Total Business Volume as
                   a Percent of the Federal IT Market”

02/24/00   A995287 Limited Audit of the Federal Technology Service
                   Performance Measure: “Percent Difference
                   Between FTS2000 Prices and Commercial Prices”




                                                                                   Office of Inspector General 51
                                  Appendix II–Audit Report Register

                                                                                       Financial
                                                                                  Recommendations
                                                                             Funds to            Questioned
Date of         Audit                                                       Be Put To         (Unsupported)
Report          Number                   Title                              Better Use             Costs


03/21/00         A995246 Audit of the Duplication Between FTS’s and FSS’s
                         Procurement Options for Information Technology
                         Products and Services

FTS Contract Audits
11/03/99         A000806 Audit  of    Termination  Claim:  AT&T
                         Communications, Contract Number GS-00K-
                         89AHD0008

Other Internal Audits
10/15/99         A995287 Limited Audit of the Public Buildings Service
                         Percent of Government-Owned Inventory Not
                         Producing Revenue and Percent of Government-
                         Leased Inventory Not Producing Revenue
                         Performance Measures

11/08/99         A995322 Report on Limited Audit of the Fiscal Year 1999
                         Federal Managers’ Financial Integrity Act
                         Assurance Statements

11/30/99         A995281 Audit of GSA’s Year 2000 Business Continuity
                         and Contingency Planning

02/28/00         A995287 Report on Internal Controls Over Performance
                         Measures

03/03/00         A000866 Audit of GSA’s Integrated Solutions Program

03/23/00         A000813 Review of Real Property Reporting for the
                         Worldwide Inventory

03/31/00         A995221 Audit of the General Services Administration’s
                         Internal Controls Over Payroll

Non-GSA Internal Audit
03/31/00         A000868 Audit of the Administrative Procedures of the
                         National Capital Planning Commission




52 Semiannual Report to The Congress
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Pursuant to Section 810, Prompt Resolution of Audit         after the report issuance date. The GSA Office of the
Recommendations, of the National Defense Authorization      Chief Financial Officer, Office of the Controller, furnished
Act, (Public Law 104-106), this appendix identifies those   the following information.
audit reports where final actions remain open 12 months

 Audits with Management Decisions Made after February 10, 1996 for Which No Final Action Has Been Completed


Date of        Audit
Report         Number                                           Title



Contract Audits
09/20/96       A61534      Preaward Audit of a Claim: Marino Construction Company, Contract Number
                           GS05P90GBC0101

11/01/96       A21882      Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company, Inc.,
                           Contract Number GS-00F-07065 for the Period November 14, 1988 Through
                           September 30, 1991

11/01/96       A31851      Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company, Inc.,
                           Contract Number GS-00F-02598 for the Period August 26, 1988 Through March 31, 1991

11/01/96       A31865      Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company, Inc.,
                           Contract Number GS-00F-02046 for the Period December 4, 1987 Through September 30,
                           1990

12/17/96       A70606      Postaward Audit of Travel Costs: Centel Federal Systems Corporation, Contract Number
                           GS-00K-89AHD0007

01/10/97       A52159      Postaward Audit of Multiple Award Schedule Contract: Austin Computer Systems, Inc.,
                           Contract Number GS-00K-91-AGS-5201

02/06/97       A70622      Preaward Audit of Change Order Proposal:         Turner Construction Company, Contract
                           Number GS-02P-95-DTC-0014

03/21/97       A70632      Preaward Audit of Change Order Proposal: Expert Electric, Inc., Contract Number GS-
                           02P-94-CUC-0033(N)

03/24/97       A72434      Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-09B-
                           88163, Calendar Years 1990 Through 1996

03/24/97       A72435      Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-09B-
                           91634, Calendar Years 1993 Through 1996

04/03/97       A72450      Preaward Audit of a Claim for Increased Costs: Azteca Construction, Inc., Subcontractor to
                           Morse Diesel International, Inc., Contract Number GS-09P-95-KTC-0032

04/18/97       A70628      Postaward Audit of Multiple Award Schedule Contractor: Clayton Associates, Inc.,
                           Contract Number GS-07F-8188B, for the Interim Period June 1, 1994 Through January 31,
                           1997


                                                                                            Office of Inspector General 53
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of         Audit
Report          Number                                            Title


04/24/97          A71212       Preaward Audit of Cost and Pricing Proposal: The Logistics Company, Inc., Task Order
                               Request GSC-TFGE-97-2002

06/06/97          A73619       Preaward Audit of Cost or Pricing Data: Symbiont, Inc., RFP Number GSC-TFGD-97-
                               1010

06/06/97          A72466       Limited Scope Preaward Audit of Proposed Overhead and Direct Labor Rates: Brayton &
                               Hughes Design Studio, Solicitation Number GS-09P-95-KTC-0029

06/11/97          A61827       Postaward Audit of Multiple Award Schedule Contract: Alexander Manufacturing
                               Company, Contract Number GS-07F-3956A for the Period February 1, 1992 Through
                               October 31, 1995

06/16/97          A70927       Preaward Audit of Cost or Pricing Data: JIL Information Systems, Inc., Proposal No. GSC-
                               TFGD-97-1012

06/17/97          A72464       Limited Scope Preaward Audit of Proposed Overhead and Direct Labor Rates: Moore
                               Ruble Yudell, Solicitation Number GS-09P-95-KTC-0029

06/17/97          A72470       Limited Scope Preaward Audit of Proposed Overhead and Direct Labor Rates: Frederick
                               Brown Associates, Solicitation Number GS-09P-95-KTC-0029

06/24/97          A70928       Preaward Audit of Cost or Pricing Data: Criticom, Inc., Solicitation No. GSC-TFGD-97-
                               1014

06/25/97          A72445       Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc., Contract
                               Number GS-09P-95-KTC-0032

06/26/97          A72471       Limited Scope Preaward Audit of Proposed Overhead and Direct Labor Rates: Tsuchiyama
                               & Kaino, Inc., Solicitation Number GS-09P-95-KTC-0029

06/26/97          A72465       Preaward Audit of a Claim for Increased Costs: Lawson Mechanical Contractors,
                               Subcontractor to Morse Diesel International, Inc., Contract Number GS-09P-95-KTC-0032

06/27/97          A71811       Audit of Claim for Increased Costs: Miscellaneous Subcontractors to Morse Diesel
                               International, Inc., Contract Number GS06P94GYC0037

07/11/97          A71803       Audit of Claim for Increased Costs: Nicholson Construction Company, Contract Number
                               GS06P94GYC0037

07/22/97          A71804       Audit of Claim for Increased Costs: Rodio/ICOS St. Louis Joint Venture, Subcontractor to
                               Morse Diesel International, Inc., Contract Number GS06P94GYC0037

07/29/97          A61849       Postaward Audit of Multiple Award Schedule Contract: Hytorc, Division of Unex
                               Corporation, Contract Number GS-06F-77977 for the Period November 1, 1989 Through
                               October 31, 1994




54 Semiannual Report to The Congress
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                     Title
07/30/97   A71819   Postaward Audit of Commercial Acquisition of Multiple Products Contract: Hytorc of
                    Virginia, Inc., Contract Number GS-06F-78361 for the Period November 1, 1994 Through
                    December 18, 1996

07/31/97   A71820   Audit of Claim for Increased Costs: Morse Diesel International, Inc., Contract Number
                    GS06P94GYC0037

08/05/97   A73617   Refund From The Committee For Purchase From People Who Are Blind Or Severely
                    Disabled, Agreement Number GS-02F-61511

08/22/97   A70646   Preaward Audit of a Delay Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                    02P-94-CUC-0070(N)

08/28/97   A72463   Limited Scope Preaward Audit of Proposed Overhead and Direct Labor Rates: Gruen
                    Associates, Solicitation Number GS-09P-95-KTC-0029

09/22/97   A70649   Preaward Audit of a Delay Claim: Consolidated Electric, Inc., Subcontractor to
                    Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

09/24/97   A71526   Price Adjustments on Multiple Award Schedule Contract: Domore Corporation, Contract
                    Number GS-00F-5232A for the Interim Period December 1, 1997 Through January 31,
                    2001

10/02/97   A72478   Audit of Claim for Increased Costs: Gonzales Construction Company, Inc., Contract
                    Number GS-08P-95-JAC-0001

10/23/97   A70655   Preaward Audit of a Delay Claim: Denron Plumbing and HVAC, Inc., Subcontractor to
                    Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

10/23/97   A72486   Audit of Claim for Increased Costs: Mountain Gravel & Construction Co., Subcontractor
                    to Gonzales Construction Company, Inc., Contract Number GS-08P-95-JAC-0001

10/24/97   A70660   Preaward Audit of a Change Order Proposal: Beacon/Pro Con Joint Venture, Contract
                    Number GS-02P-94-CUC-0070(N)

11/12/97   A70656   Preaward Audit of a Delay Claim: J.C. Higgins Corp., Subcontractor to Beacon/Pro Con
                    Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

11/26/97   A22536   Postaward Audit of Multiple Award Schedule Contract: Ingres Corporation, Contract
                    Number GS00K89AGS5589

11/26/97   A32476   Limited Audit of Government Billings:        Ingres Corporation, Contract Number
                    GS00K89AGS5589

12/10/97   A81512   Preaward Audit of a Claim for Increased Costs: Don-Lee, Inc., Subcontractor to D.L.
                    Woods Construction Inc., Contract Number GS05P91GBC0057

12/24/97   A80602   Preaward Audit of a Delay Claim: Dan Lepore and Sons, Inc., Subcontractor to
                    Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)


                                                                                Office of Inspector General 55
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of         Audit
Report          Number                                           Title


01/12/98         A80604       Preaward Audit of a Delay Claim: Able Finishing, Inc., Subcontractor to Beacon/Pro Con
                              Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

01/12/98         A80608       Preaward Audit of a Delay Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                              02P-94-CUC-0070(N)

02/05/98         A80609       Preaward Audit of a Delay Claim: The Woodworks Architectural Millwork, Inc.,
                              Subcontractor to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-
                              0070(N)

02/11/98         A80607       Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                              CUC-0070(N)

02/27/98         A52155       Postaward Audit of Multiple Award Schedule Contract: Network General Corporation,
                              Contract Number GS00K92AGS6109

03/19/98         A81515       Audit of Claim for Increased Costs: Herman B. Taylor Construction Company, Contract
                              Number GS-07P-92-HUC-0017

03/30/98         A81525       Audit of Real Estate Tax Escalations, American National Bank, Trustee, Lease Number
                              GS-05B-14966, Tax Years 1992 Through 1995

04/09/98         A72448       Postaward Audit of Multiple Award Schedule Contract: Ungermann-Bass, Inc., Contract
                              Number GS00K94AGS5367

04/13/98         A80621       Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                              CUC-0070(N)

04/20/98         A81528       Audit of Real Estate Tax Adjustments: American National Bank, Trustee, Lease Number
                              GS-05B-15448, Calendar Years 1994 Through 1996

05/27/98         A42146       Postaward Audit of Multiple Award Schedule Contract: Haworth, Incorporated, Contract
                              Number GS-00F-07010

06/08/98         A80618       Postaward Audit of Recoverable Costs: Six World Trade Center, New York, NY, Lease
                              Number GS-02B-15370

06/17/98         A83043       Preaward Audit of Architect and Engineering Services Contract: JVP Engineers, P.C.,
                              Solicitation Number GS11P98EGD0068

06/17/98         A82441       Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc., Contract
                              Number GS-09P-95-KTC-0010

06/24/98         A81535       Audit of Real Estate Tax Adjustments: Riggs National Bank of Washington, DC, Trustee
                              for Multi Employer Property Trust (MEPT), Lease Number GS-05B-14919, Calendar
                              Years 1992 Through 1997




56 Semiannual Report to The Congress
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                       Title


07/17/98   A60934   Postaward Audit of Multiple Award Schedule Contract: Interface Flooring Systems, Inc.,
                    Contract Number GS-00F-0002A for the Interim Period October 8, 1992 Through
                    February 28, 1997

08/07/98   A21578   Postaward Audit of Multiple Award Schedule Contract: Shaw-Walker Company, Contract
                    Number GS-00F-94175

08/07/98   A10830   Postaward Audit of Multiple Award Schedule Contract: Shaw-Walker Company, Contract
                    Number GS-00F-76677

08/12/98   A82451   Preaward Audit of a Claim for Increased Costs: Thermal Management, Inc., Contract
                    Number GS05P95GBC0004

08/12/98   A82452   Audit of Termination Settlement Proposal: Thermal Management, Inc., Contract Number
                    GS05P95GBC0004

09/04/98   A90302   Postaward Audit of Multiple Award Schedule Contract: Westinghouse Furniture Systems,
                    Contract Number GS-00F-76574

09/22/98   A80931   Preaward Review of Multiple Award Schedule Contract For The Extension Period April 1,
                    1999 Through March 31, 2004: Computer Associates International, Inc., Contract Number
                    GS-35F-5169H

09/24/98   A80934   Preaward Audit of Multiple Award Schedule Contract: Simple Green, a Division of
                    Sunshine Makers, Inc., Solicitation Number TFTP-97-SC-7906B

09/24/98   A82456   Audit of Termination Settlement Proposal:      Witherington Construction Corporation,
                    Contract Number GS-07P-95-HUC-0068

10/13/98   A80636   Preaward Audit of a Claim: Structural Preservation Systems, Inc., Contract Number GS-
                    02P-96-DTC-0033

10/20/98   A80639   Postaward Audit of Multiple Award Schedule Contract: Photon Technology International,
                    Inc., Contract Number GS-24F-1140B

10/20/98   A80649   Preaward Audit of Architect and Engineering Services Contract: Gwathmey Siegel &
                    Assoc. Architects, LLC, Solicitation Number GS-02P-98-DTC-0059(N)

10/22/98   A80935   Preaward Audit of Architect and Engineering Services Contract: Ove Arup & Partners,
                    Contract Number GS-02P-98-DTC-0059(N)

10/22/98   A83027   Audit of Claim for Increased Cost: Clark Concrete Contractors, Inc., Contract Number GS-
                    11P94MKC0078

10/27/98   A51568   Postaward Audit of Multiple Award Schedule Contract: Liebert Corporation, Contract
                    Number GS-07F-3779A




                                                                                  Office of Inspector General 57
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of         Audit
Report          Number                                          Title


10/27/98         A51542       Postaward Audit of Multiple Award Schedule Contract: Liebert Corporation, Contract
                              Number GS00F06964

11/13/98         A82471       Preaward Audit of a Claim for Increased Costs: Hensel Phelps Construction Company,
                              Contract Number GS-08P-96-JFC-0006

11/16/98         A80646       Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                              CUC-0070(N)

12/15/98         A82472       Preaward Audit of a Claim for Increased Costs: Trautman & Shreve, Inc., Subcontractor
                              to Hensel Phelps Construction Company, Contract Number GS-08P-96-JFC-0006

01/05/99         A95101       Preaward Audit of Claim for Increased Costs: Program and Construction Management
                              Group, Contract Number GS-11P-94MKC-0019

01/21/99         A95123       Limited Review of Claimed Incurred Costs: Linpro New York Realty, Inc., 290 Broadway
                              Retail Space

01/29/99         A95106       Postaward Audit of Overhead Rate: Turner Construction Company, Contract Number GS-
                              05P-94GBC-0051

02/05/99         A95113       Preaward Audit of Supplemental Architect and Engineering Services Contract:       Van
                              Deusen & Associates, Solicitation Number GS-02P-98-PLD-0029(N)

02/10/99         A95158       Preaward Audit of Architect and Engineering Services Contract:     H + G Architects,
                              Solicitation Number GS-02P-98-PLD-0015

02/17/99         A95100       Preaward Audit of a Claim: Chereco Co., Inc., Subcontractor to TGMI/Contractors Inc.,
                              Contract Number GS-03P-96-DXC-0021

03/02/99         A95139       Preaward Audit of a Claim: Stromberg Metal Works, Inc., Subcontractor to W.M.
                              Schlosser Company, Inc., Contract Number GS-03P-92-DXC-0021

03/11/99         A95133       Preaward Audit of Multiple Award Schedule Contract for the Extension Period April 1,
                              1999 Through September 30, 2002: IBM Corporation, Contract Number GS-35F-4984H

03/19/99         A95124       Audit of Claim for Increased Costs: Dawson Building Contractors, Inc., Contract Number
                              GS-04P-95-EXC-0046

03/30/99         A95150       Preaward Audit of Supplemental Architect and Engineering Services Contract: Ammann &
                              Whitney Consulting Engineers, P.C., Solicitation Number GS-02P-98-PLD-0015(N)




58 Semiannual Report to The Congress
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit                                                                             Projected Final
Report     Number                                       Title                                 Action Date



Internal Audits
03/27/96   A43005   Audit of GSA’s Aircraft Management Program                                     07/15/00

03/29/96   A42720   Audit of Accounting and Billing Controls Over the Public Buildings             06/15/00
                    Service, National Capital Region’s Reimbursable Work Authorizations

12/02/96   A63019   Audit of the PAPCAP Price Adjustments                                          07/15/00

03/26/97   A61247   Review of the Public Buildings Service Debarment Program        Revised action plan/due
                                                                                    dates being formulated
07/11/97   A60645   Audit of the Federal Protective Service’s Criminal Investigation               04/15/00
                    Program

09/26/97   A70627   Audit of Real Estate Tax and Janitorial Service Contract                       06/15/00
                    Payments

01/30/98   A72443   Audit of the Megacenter Program, Federal Protective Service, Public            07/15/00
                    Buildings Service

03/30/98   A83007   Follow-up Review of the Contract Workload Management                           12/15/00

06/23/98   A70924   Audit of Industrial Funding Fee, Federal Supply Service,                       04/15/00
                    Travel Management Center Program

09/14/98   A70642   Audit of The Federal Protective Service’s Program for Upgrading                08/15/00
                    Security at Federal Facilities

09/24/99   A83602   GSA’s Information Systems Security Has Not Kept Pace With                      12/15/00
                    Increasing Internet and Intranet Risks

09/30/98   A72705   Arthur Andersen LLP, Fiscal Year 1997 Comments and Suggestions                 04/15/01
                    for Consideration (Management letter)

12/01/98   A80321   Audit of the Availability of Federal Building Design Plans                     05/15/00

03/24/99   A83305   Audit of PBS Initiatives to Improve Space Alterations                          06/15/00

03/24/99   A95025   Audit of Security Measures for New and Renovated Federal Facilities            01/15/01




                                                                                   Office of Inspector General 59
                                       Appendix IV–Delinquent Debts




The GSA Office of the Chief Financial Officer provided the following information.
GSA Efforts to Improve Debt                                  • Claims coordination efforts among regional
                                                               contracting officers, Finance Center personnel, and
Collection                                                     Treasury personnel continue to strengthen our
During the period October 1, 1999 through March 31,            collection efforts.   The Federal Supply Service is
2000, GSA efforts to improve debt collection and reduce        considering increasing the minimum amount assessed
the amount of debt written off as uncollectible focused on     for liquidated damages to $200, hoping this will
                                                               encourage bidders to pay for and remove items
upgrading the collection function and enhancing debt
                                                               purchased at GSA auctions and reduce the number of
management. These activities included the following:           small dollar claims.
• From October 1, 1999 to March 31, 2000, GSA                • We have increased the number and dollar amount of
  Finance Centers referred 639 delinquent non-Federal          billings under the Memorandum of Understanding
  claims in the amount of $1.5 million to the U.S.             between the Federal Technology Service (FTS) and the
  Department of the Treasury (Treasury) for collection         Defense Finance and Accounting Service, and
  cross-servicing activities. FY 2000 collections on           increased the collection of outstanding accounts
  these claims, to date, exceed $1.2 million.                  receivable from the Department of Defense through the
  Administrative offsets have resulted in an additional        On-line Payment and Collection (OPAC) system.
  collection of $510,000. GSA also collects non-Federal
  claims using Pre-Authorized Debits (PADs). From            • A task force is being created to focus on unbooked
  October 1, 1999 to March 31, 2000, 26 PADs totaling          OPAC collections. A joint GSA Office of Finance/ FTS
  $5,336 were issued.                                          team is being formed to investigate and
                                                               recommend improvements to the collection process for
                                                               non-OPAC billings.
• GSA continues to improve its new Accounts
  Receivable Claims System (ARCS). The new ARCS is
                                                             • We are conducting workshops and customer service
  completing enhancements to handle claims related to          visits, and soliciting assistance from GSA’s Service and
  the collection of past due industrial funding fees owed      Staff offices in collecting delinquent accounts.
  by contractors in GSA’s Multiple Award Schedule
  Program, to provide access by the Greater Southwest        • We have provided two additional web sites for our
  Finance Center, and to develop new reports to track          customers to review Reimbursable Work Authorization
  statistical information on claims.                           billings and collections.

Non-Federal Accounts Receivable

                                                     As of                   As of
                                                 October 1, 1999         March 31, 2000             Difference

   Total Amounts Due GSA                            $38,843,640            $30,241,398           ($8,602,242)

   Amount Delinquent                                $18,601,440            $17,465,639           ($1,135,801)

   Total Amount Written
   Off as Uncollectible
   Between 10/1/99 and
   3/31/00                                             $195,604


60 Semiannual Report to The Congress
                                        Appendix V–Reporting Requirements




The table below cross-references the reporting require-                                Report No. 96-829 relative to the 1980 Supplemental
ments prescribed by the Inspector General Act of 1978, as                              Appropriations and Rescission Bill and the National
amended, to the specific pages where they are addressed.                               Defense Authorization Act             is    also  cross-
The information requested by the Congress in Senate                                    referenced to the appropriate page of the report.



  Requirement                                                                                                                                              Page
  Inspector General Act
     Section 4(a)(2) - Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .29
     Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . . . .2, 13, 18
     Section 5(a)(2) - Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2, 13, 18
     Section 5(a)(3) - Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .39
     Section 5(a)(4) - Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .35
     Sections 5(a)(5) and 6(b)(2) - Summary of Instances Where
      Information Was Refused. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None
     Section 5(a)(6) - List of Audit Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .42
     Section 5(a)(7) - Summary of Each Particularly Significant Report. . . . . . . . . . . . . . . . . . . . . . . . . .2, 13, 18
     Section 5(a)(8) - Statistical Tables on Management Decisions on
      Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .34
     Section 5(a)(9) - Statistical Tables on Management Decisions on
      Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .33
     Section 5(a)(10) - Summary of Each Audit Report over 6 Months
      Old for Which No Management Decision Has Been Made . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None
     Section 5(a)(11) - Description and Explanation for Any Significant
      Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None
     Section 5(a)(12) - Information on Any Significant Management
      Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None
  Senate Report No. 96-829
     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .32
     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .60
  National Defense Authorization Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .53




                                                                                                                                     Office of Inspector General 61
                                       Notes




62 Semiannual Report to The Congress
Notes




        Office of Inspector General 63
                                       Notes




64 Semiannual Report to The Congress
                       e
like
it~
                    r
                                     I

              •
It           I •
To report suspected waste,
fraud, abuse, or mismanagement
in GSA, call your

Inspector General's Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write:    GSA, IG, Hotline Officer
             Washington, DC 20405

            u.s. General Services Administration
            Office of the Inspector General
